<html>
<title> - H.R. 4910 and H.R. 5123</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
                        H.R. 4910 and H.R. 5123

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             July 25, 2002

                               __________

                           Serial No. 107-146

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

80-968              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                       Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona               Tim Holden, Pennsylvania
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                   KEN CALVERT, California, Chairman
            ADAM SMITH, Washington, Ranking Democrat Member

 Richard W. Pombo, California        George Miller, California
George Radanovich, California        Peter A. DeFazio, Oregon
Greg Walden, Oregon,                 Calvin M. Dooley, California
  Vice Chairman                      Grace F. Napolitano, California
Michael K. Simpson, Idaho            Hilda L. Solis, California
J.D. Hayworth, Arizona               Brad Carson, Oklahoma
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 25, 2002....................................     1

Statement of Members:
    Bono, Hon. Mary, a Representative in Congress from the State 
      of California..............................................    17
        Prepared statement on H.R. 5123..........................    19
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................    10
        Prepared statement on H.R. 4910 and H.R. 5123............    11
    Hunter, Hon. Duncan L., a Representative in Congress from the 
      State of California........................................    12
        Prepared statement on H.R. 5123..........................    15
    Stenholm, Hon. Charles W., a Representative in Congress from 
      the State of Texas,........................................     2
        Prepared statement on H.R. 4910..........................     3

Statement of Witnesses:
    Carter, John P., General Counsel, Imperial Irrigation 
      District...................................................    37
        Prepared statement on H.R. 5123..........................    39
        Joint statement on H.R. 5123.............................    52
    Friend, Clayton, District Manager, Tom Green County Water 
      Control and Improvement District #1........................     4
        Prepared statement on H.R. 4910..........................     5
    Johnson, Robert, Regional Director, Lower Colorado Region, 
      Bureau of Reclamation, U.S. Department of the Interior.....    20
        Prepared statement on H.R. 5123..........................    21
    Kirk, Tom, Executive Director, Salton Sea Authority..........    44
        Prepared statement on H.R. 5123..........................    46
    Levy, Thomas, General Manager-Chief Engineer, Coachella 
      Valley Water District......................................    51
        Joint statement on H.R. 5123.............................    52
    Limbaugh, Mark A., Director, External and Intergovernmental 
      Affairs, Bureau of Reclamation, U.S. Department of the 
      Interior...................................................     8
        Prepared statement on H.R. 4910..........................     9
    Snape, William J. III, Vice President and Chief Counsel, 
      Defenders of Wildlife......................................    56
        Prepared statement on H.R. 5123..........................    58
    Underwood, Dennis, Vice President for Colorado River Matters, 
      Metropolitan Water District of Southern California.........    51
        Joint statement on H.R. 5123.............................    52

Additional materials supplied:
    Crites, Buford, Chair, Energy and Environment Committee, 
      Coachella Valley Association of Governments, Letter 
      submitted for the record by The Honorable Mary Bono and Tom 
      Kirk.......................................................    34


  LEGISLATIVE HEARING ON H.R. 4910, TO AUTHORIZE THE SECRETARY OF THE 
INTERIOR TO REVISE A REPAYMENT CONTRACT WITH THE TOM GREEN COUNTY WATER 
 CONTROL AND IMPROVEMENT DISTRICT NO.1, SAN ANGELO PROJECT, TEXAS, AND 
 FOR OTHER PURPOSES; AND H.R. 5123, TO ADDRESS CERTAIN MATTERS RELATED 
  TO COLORADO RIVER WATER MANAGEMENT AND THE SALTON SEA BY PROVIDING 
  FUNDING FOR HABITAT ENHANCEMENT PROJECTS AT THE SALTON SEA, AND FOR 
                            OTHER PURPOSES.

                              ----------                              


                        Thursday, July 25, 2002

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
room 1334 Longworth House Office Building, Hon. Ken Calvert 
[Chairman of the Subcommittee] presiding.
    Mr. Calvert. The Subcommittee on Water and Power will come 
to order.
    The Committee is meeting today to hear testimony on two 
bills, H.R. 4910, to authorize the Secretary of Interior to 
revise a repayment contract with Tom Green County Water Control 
and Improvement District No. 1, San Angelo project, Texas, and 
for other purposes.
    We are also meeting on H.R. 5123, to address certain 
matters related to the Colorado River management and the Salton 
Sea, by providing funding for habitat enhancement projects at 
the Salton Sea and for other purposes.
    Under Rule 4(b) of the Committee rules, any oral opening 
statements at hearings are limited to the Chairman and the 
Ranking Member. If other members have statements they can be 
included in the hearing record under unanimous consent.
    Today we will hear testimony in two unrelated bills, first, 
H.R. 4910 to authorize the Secretary of Interior to revise a 
repayment contract with an irrigation district in Texas.
    With that, I am pleased to recognize our colleague and good 
friend, Mr. Stenholm from Texas.

STATEMENT OF CHARLES W. STENHOLM, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Stenholm. Thank you, Mr. Chairman. I want to extend my 
appreciation to you and members of this Committee for 
scheduling this hearing and considering H.R. 4910.
    Tom Green County Water Control and Improvement District, 
Number 1, has an outstanding loan with the Department of 
Interior for the construction of an irrigation canal. The 
remaining balance is approximately $2.4 million.
    The farmers in the district have made diligent efforts to 
make timely payments on the contract. They have paid 38 
percent, about one and a half million of the original debt owed 
to the Department of Interior, despite the fact that they have 
yet to receive a fair return on their investment.
    In West Texas, there is virtually nothing of a higher daily 
concern that the availability of water. In recent years Texas 
has been devastated by drought. As a result, the farmers have 
received a full year's allocation of irrigation water only 50 
percent of the time.
    Moreover, for the other 50 percent of the time they 
received either less than the annual allocation or no 
irrigation water at all. Payment on the debt has never been 
forgiven, even in years when the district received no water.
    Deferments have been granted seven times, however, those 
payments still have to be made. They are added to the remaining 
balance and the payments continue to get higher annually 
because the original contract end date does not change.
    To make matters worse, the concrete lining replaced in the 
canal in 1960 has started to deteriorate after 42 years and 
repairs are necessary. These repairs are very expensive. 
Farmers simply cannot sustain paying the cost of the annual 
operation and maintenance costs to the irrigation district, the 
Bureau of Reclamation annual payment and extensive repair costs 
when little or no water is available.
    The Bureau of Reclamation has stated that the increased 
payments as a result of continued deferments due to the drought 
conditions are making it increasingly difficult on the farmers' 
ability to pay the annual payments.
    The increased annual payments place additional financial 
burdens on the district and increasing these payments further 
will only lead to future difficult that the Bureau of 
Reclamation cannot remedy.
    Only Congress can remedy the long-term problem, which is 
why I have introduced H.R. 4910 to get this loan restructured. 
This legislation would allow the Secretary of Interior to 
revise the repayment contract, number 14-06-500-369, by 
extending the period authorized for repayment of reimbursable 
construction costs of the canal from 40 to 50 years.
    I think it is important to note that this bill will have no 
long-term impacts to the Federal budget other than some, 
perhaps, additional interest costs. The Federal Government will 
receive payment on this loan, but with this much-needed 
extension, it will be 10 years later than anticipated.
    On behalf of my farmers in my district, I appreciate your 
time and attention to this legislation. I understand the 
Subcommittee will be marking up H.R. 4910 following this 
legislative hearing.
    I welcome any and all suggestions to improve the bill in 
order to better assist the irrigation district. With that, I 
would then to my friend and complainant, Clayton Friend, who is 
Tom Green County Commissioner Precinct One and District Manager 
of the Water District for his additional comments regarding the 
proposal to us today.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Stenholm follows:]

Statement of the Hon. Charles W. Stenholm, a Representative in Congress 
                        from the State of Texas

    Thank you Mr. Chairman, and I thank the members of the committee 
for allowing me to come and be here today.
    The Tom Green County Water Control & Improvement District No. 1 has 
an outstanding loan with the Department of Interior for the 
construction of an irrigation canal. The remaining balance is 
approximately $2.4 million. The farmers in the District have made 
diligent efforts to make timely payments on the contract. They have 
paid 38 percent (about $1.5 million) of the original dept owed to the 
Department of Interior despite the fact that they have yet to receive a 
fair return on their investment.
    In West Texas, there is virtually nothing of a higher daily concern 
than the availability of water. In recent years, Texas has been 
devastated by drought. As a result, the farmers have received a full 
year's allocation of irrigation water only 50 percent of the time. 
Moreover, for the other 50 percent of the time, they received either 
less than the annual allocation or no irrigation water at all.
    Payment on the debt has never been forgiven, even in years when the 
District received no water. Deferments have been granted seven times; 
however, those payments still have to be made. They are added to the 
remaining balance and the payments continue to get higher annually 
because the original contract end date does not change.
    To make matters worse, the concrete lining placed in the canal in 
1960 has started to deteriorate after forty-two years and repairs are 
necessary. These repairs are very expensive. Farmers simply cannot 
sustain paying the costs of the annual operation and maintenance costs 
due to the irrigation district, the Bureau of Reclamation annual 
payment, and extensive repair costs when little or no water is 
available.
    The Bureau of Reclamation has stated that the increased payments, 
as a result of continued deferments due to the drought conditions, are 
making it increasingly difficult on the farmers'' ability to repay the 
annual payments. The increased annual payments place additional 
financial burdens on the District and increasing these payments further 
will only lead to future difficulty that the Bureau of Reclamation 
cannot remedy. Only Congress can remedy the long-term problem, which is 
why I have introduced H.R. 4910 to get this loan restructured.
    This legislation would allow the Secretary of Interior to revise 
the repayment contract (No. 14-06-500-369) by extending the period 
authorized for repayment of reimbursable construction costs of the 
canal from 40 to 50 years.
    (I think it is important to note that this bill will have no long-
term impacts to the federal budget. The federal government will receive 
payment on this loan, but with this much needed extension, it will be 
ten years later than anticipated.)
    On behalf of my farmers in my district, I appreciate your time and 
attention to this legislation. I understand that the Subcommittee will 
be marking-up H.R. 4910 following this legislative hearing, and I 
welcome any and all suggestions to improve the bill in order to better 
assist the irrigation district.
    Thank you.
                                 ______
                                 
    Mr. Calvert. Thank you. The gentleman is recognized.

STATEMENT OF CLAYTON FRIEND, DISTRICT MANAGER, TOM GREEN COUNTY 
            WATER CONTROL IMPROVEMENT DISTRICT No. 1

    Mr. Friend. Thank you, Mr. Chairman, and thank you 
Committee members for allowing us, as Congress Stenholm has 
said, allowing us to be here today to speak with you.
    As has been stated, we do have a contract with the Bureau 
of Reclamation, a repayment plan and it was set out for 40 
years. We have made diligent efforts to make those payments and 
due to living in West Texas where rain is scarce and crop 
production is low, we have made 38 percent of our payment, but 
because of low water inflow and many times no water, we have 
been placed into the situation of asking the Bureau for a 
deferment seven times.
    The Bureau is an excellent working partner in this with us 
and we have had excellent success in receiving suggestions and 
working with our personnel. Those deferments have been granted. 
The only problem with that is the end date does not change and 
therefore, each year the deferment is granted, as Congress 
Stenholm has said, the payment gets larger each year. It 
increases the burden on our farmers.
    Our district, because we have had no water from the 
project, Twin Buttes Reservoir, we made a contract with the 
city of San Angelo, Texas and we are currently taking their 
reclaimed waste water to try to help them out and to help our 
district out. They installed a pipeline to our canal, so we are 
farming our land using the city's reclaimed wastewater. It was 
a good situation for them and it was a good situation for us 
because it gives us approximately eight inches of water per 
acre in our irrigation district.
    Typically, when we have a full allocation of water under 
our contract, we can irrigation with 24 inches, as you see in 
the report. In the years that we have had 24 inches, that is a 
full annual allocation.
    So we have eight inches, and the problem with that is the 
city generates water every day, so we must take the water on a 
continual basis. We have to take it during the winter months 
and thereby it reduces their storage capabilities but it 
reduces the amount available to the farmer during the growing 
season, which is typically the spring and summer months. So, we 
have a little water and we try to use it as best we can.
    We have tried to maintain our canal. As Congressman 
Stenholm said, we have deteriorating problems with the canal 
because it was installed in 1960 or '62 and after 40 years it 
is starting to deteriorate. So, we have had to use some of our 
local money to do repairs on the canal. So, it seems like our 
problems are mounting.
    We appreciate your help. We also appreciate your amending 
the bill here today by eliminating Section 2. That was 
inadvertently placed in there. The current lake level at Twin 
Buttes Reservoir, when I submitted to you my written statement, 
was 9100 acre feet the day before yesterday. It has reduced to 
8400, so it is going down daily and under our water crediting 
system, we don't get any water to irrigation until it gets 
above 50,000 acre feet. As you well know, inflows of 40,000 
acre-feet into a reservoir are pretty significant. So we would 
have to have that and anything above that before we would be 
granted any inflows.
    Again, we ask for your support on this. If you have any 
questions with regard to any problems or any situations within 
the district, I will be glad to answer them.
    Thank you very much.
    [The prepared statement of Mr. Friend follows:]

Statement of Clayton Friend, Tom Green County Commissioner Precinct 1, 
  and District Manager, Tom Green County Water Control & Improvement 
                               District 1

    Thank you Mr. Chairman and I thank the members of the committee for 
allowing me to come and be here today and present to you the problems 
facing the Tom Green County Water Control & Improvement District 1 
which I will refer to in the remainder of my statement as the 
``District''.

History:
    The San Angelo Project was constructed with oversight by the Bureau 
of Reclamation and completed around 1962. The project included the Twin 
Buttes Reservoir which was to provide municipal, industrial and 
recreational water for the City of San Angelo, Texas with storage 
capacity of approximately 180,000 acre feet of water. In addition, the 
San Angelo Project was to provide irrigation water to the District by 
using a 65-mile concrete lined irrigation canal system that was 
constructed with Bureau of Reclamation oversight during the same 
period. This canal system was to provide access to the water stored in 
the Twin Buttes Reservoir to irrigate 10,000 acres of farmland. Ten 
years passed before there was enough water in the Reservoir to release 
any water into the canal system. In 1972 the first irrigation releases 
were made to the District through the canal system. Both the City of 
San Angelo and the District have repayment contracts with the Bureau of 
Reclamation, Department of the Interior for their portion of the costs 
of the San Angelo Project.
    The District's outstanding loan with the Department of Interior for 
the construction of the irrigation canal is Contract No. 14-06-500-369, 
San Angelo Project. The original amount of the District's loan was 
$4,000,000. The District has paid $1,506,132, and the remaining balance 
is $2,487,707.

Problems:
    The farmers in the District have made diligent efforts to make 
timely payments on the contract. They have, in fact, paid 38% of the 
original debt owed to the Department of the Interior. One of the 
problems is that the farmers haven't received a fair return on their 
investment. The farmers have received a full year's allocation of 
irrigation water, 24 inches per acre, only 50% of the time since 1962 
when the canal was completed. However, for the other 50% of the time 
the farmers received either less than the annual 24 inches per acre of 
irrigation water or no irrigation water at all. Payment on the debt has 
never been forgiven, even in years when the District received no water. 
Deferments have been granted 7 times due to drought conditions. Those 
payments, however still have to be made. They are added to the 
remaining balance and the payments continue to get higher annually 
because the original contract end date does not change.
    The last time the farmers have had any water available from Twin 
Buttes Reservoir was in 1998 when they received 1 + inches of water per 
acre. The last time they had the full allocation of 24 inches per acre 
was in 1997. Farmers cannot exist paying the operation and maintenance 
costs of the District and the repayment to the Bureau of Reclamation 
when there is little or no water available.
    The following chart represents the amounts of irrigation water 
available from Twin Buttes reservoir since completion of the canal 
system:

[GRAPHIC] [TIFF OMITTED] T0968.002

    As indicated in the chart above, the District has received little 
or no water in 21 of 40 years.
Current lake level and water credit procedures:
    At the present time, Twin Buttes Reservoir only has 5% of water in 
storage. This amounts to approximately 9100 acre feet. There is a water 
accounting system that credits water to the District and to the City of 
San Angelo. The District gets credit for all of the water above 50,000 
acre feet of stored water. With the current lake level at 9100 acre 
feet, the lake would have to have inflow of over 40,000 acre feet 
before the District gets even one drop of water in storage credits. To 
irrigate 10,000 acres, it takes about 867 acre feet to equal one inch 
of water per acre of farmland. Evaporation also must be considered 
which sometimes can amount to 15% to 20%, so additional water must be 
available to allow for evaporation. As has been stated previously in 
this report, a normal irrigating season with a full allocation of 
irrigation water (24 inches per acre) there must be approximately 
22,000 acre feet available for 10,000 acres of farmland.

Additional Problems:
    There has been an additional problem facing the farmers in the 
District. The concrete lining that was placed in the canal system in 
the early 60's has started to deteriorate after 40 years and now 
repairs are necessary. The canal lining was designed without any 
reinforcement steel of any kind and has progressively become worse over 
time. To repair the canal lining places additional burdens on the 
farmers because the repairs are very expensive. The farmers in the 
District have to pay the annual payment for the construction of the 
canal plus the operation and maintenance costs for the operation of the 
District. If you have to add the expensive repair costs that need to be 
done, it makes it virtually impossible for the farmers to make a profit 
when there is no water available from Twin Buttes Reservoir. The 
District is, however, trying to repair parts of the canal system that 
need the most attention. With Bureau of Reclamation approval, the 
District is using up to $30,000 of its reserve funds to pay for some of 
the necessary repairs. The amount of reserve funds available is very 
limited and will only cover a small amount.
    The slides following my testimony show the deteriorating canal 
lining and small places where repairs have been made at the District's 
own expense.

Looking for an alternate water supply:
    Because there was no water available in Twin Buttes Reservoir, the 
District has contracted with the City of San Angelo for the use of it's 
reclaimed wastewater from its wastewater treatment plant. This provides 
for 8 inches of wastewater per acre of land annually. This water has to 
be used on a continual basis because the City of San Angelo produces 
wastewater daily and has limited storage capacities. This reduces the 
amount of water that can be provided to farm crops during the growing 
season, which is typically during the spring, and summer months. There 
was additional stress placed on the District because a return flow 
pumping system had to be installed to keep the wastewater from entering 
into the Concho River. A loan from the Texas Water Development Board in 
the amount of $150,000 was made available to the District to help 
finance the cost of the pumping system, which cost around $190,000. 
Annual payments to the TWDB are made by assessing fees to the farmers 
in the District. These fees are in addition to the fees already 
mentioned. The amount of water available from the wastewater treatment 
plant is only 8 inches per acre per year. The farmers have to pay full 
irrigation prices yet they only receive 8 inches of wastewater per acre 
per year and nothing from Twin Buttes Reservoir.

Effects of drought and depressed commodity prices on farmers in the 
        District:
    The local Texas Agricultural Extension Agents assisted the District 
personnel in preparing the following data. The data compares the 
average income during the years from 1988-1992 when 24 inches of 
irrigation water per acre was available and the year 2000 when there 
was no water available for irrigation from Twin Buttes Reservoir.
[GRAPHIC] [TIFF OMITTED] T0968.003

    The results for the year 2000 would be very similar to the years 
2001 and 2002 as well as other years that there was no irrigation water 
available from Twin Buttes Reservoir. The Extension Agent was only 
asked to provide the most recent year's data available which, at the 
time, was the year 2000.
Possible solutions:
    Included below are several suggestions that would help solve the 
current problem.
    <bullet> Extend the repayment period of the loan from 40 to 50 
years. This would allow the annual payments to be reduced because they 
would be extended for an additional 10 years. This same option was 
granted to the City of San Angelo in 1971.
    <bullet> Reduce the amount owed to the Bureau of Reclamation on 
the repayment contract to allow the District to have funds available 
for the repairs on the canal system. The canal system is going to 
continue to deteriorate and must be repaired.
    <bullet> Restructuring the loan would also help. If the end date 
of the repayment contract could be extended for each year that a 
deferment was granted this would keep the payments the same each year 
and not get bigger each time a deferment was granted.
    <bullet> Have payments to be made only when water in Twin Buttes 
Reservoir is available for irrigation use. If a full 24 inches per acre 
were available, then the full payment would be due. If 12 inches, for 
example, per acre were only available, then 1/2 the payment would be 
due. This would give some relief to the farmers when the full 
allocation is not available.
    If we continue as we are, the payments will only get bigger and the 
ability of the farmers to pay the debt will only get more difficult. In 
August 29, 2000, then Regional Director Maryanne Bach states 
``Reclamation is aware of the drought conditions in the State of Texas 
which continue to impact the availability of water within the San 
Angelo project. Although the deferments received by the District to 
date have not increased the District's remaining obligation to the 
United States, the deferments have increased the amount of the annual 
payments for the remaining repayment period because Reclamation does 
not have the authority to extend the repayment period without 
congressional approval. The increased annual payments place additional 
burden on the District. This financial burden has been exacerbated by 
current drought conditions and Reclamation believes any additional 
increase will only lead to future financial difficulty that cannot be 
offset by Reclamation under its limited authority.''
Conclusions:
    The Tom Green County Water Control & Improvement District 1 does 
not ask for a handout. Instead, the District is asking for a helping 
hand. Any consideration in the form of relief will be greatly 
appreciated. The District has tried to be a good partner in this 
effort. The District also has an excellent working relationship with 
the Bureau of Reclamation and has welcomed any and all support or 
suggestions made by its personnel.
    Honorable members of the Subcommittee, we have a deteriorating 
canal system and we still owe over 19 years on the debt. It's like 
owning an old worn out car but still making payments. Repairs can be 
devastating.
    Thank you
    [Pictures attached to Mr. Friend's statement have been retained in 
the Committee's official files.]
                                 ______
                                 
    Mr. Calvert. I would now ask Mr. Limbaugh, the Director of 
External and Intergovernmental Affairs for the Bureau of 
Reclamation to come forward and give his testimony.
    Then we will ask questions of you both.
    Mr. Limbaugh, you are recognized for 5 minutes.

     STATEMENT OF MARK A. LIMBAUGH, DIRECTOR, EXTERNAL AND 
    INTERGOVERNMENTAL AFFAIRS, BUREAU OF RECLAMATION, U.S. 
                     DEPARTMENT OF INTERIOR

    Mr. Limbaugh. My name is Mark Limbaugh. I am the Director 
of External and Intergovernmental Affairs for the Bureau of 
Reclamation here in Washington. I am pleased to be here to give 
the department's views on H.R. 4910, authorizing the Secretary 
to revise the repayment contract with the Tom Green County 
Water Control and Improvement District Number One, a 
reclamation San Angelo project in Texas.
    I would ask Mr. Chairman, that you enter my written 
comments in the record.
    Mr. Calvert. Without objection, it is so ordered.
    Mr. Limbaugh. The San Angelo project was authorized by 
Congress in 1957 to provide flood control, municipal and 
industrial water for the city of San Angelo and supplemental 
irrigation supplies to the district.
    The project also provides recreational and fish and 
wildlife benefits for the general public. The project has 
endured chronic drought conditions since it was constructed in 
'63. These arid conditions have resulted in Reclamation 
granting seven deferments to the annual installments due on the 
district's 40-year repayment contract.
    During the past 6 years alone, four deferments for the 
district's annual payment to the United States have been 
granted because of unavailability of irrigation water.
    The department does support H.R. 4910. Section 1 of H.R. 
4910 provides some immediate financial relief to the district 
by extending its contract by 10 years and reducing its annual 
repayment to the United States.
    Extending the repayment terms of the contract will not 
likely be a permanent solution to the water scarce conditions 
plaguing the project, but will give Reclamation time to assess 
the project's long-term challenges and will aid the district in 
meeting an annual repayment obligation under the contract.
    Finally, Section 2 of the bill was previously enacted into 
law and appears to be inadvertently included in the drafting of 
the bill and should be deleted from H.R. 4910.
    Mr. Chairman, this concludes my testimony on H.R. 4910. I 
would stand for questions.
    Mr. Calvert. I thank the gentleman.
    [The prepared statement of Mr. Limbaugh follows:]

 Statement of Mark Limbaugh, Director, External and Intergovernmental 
  Affairs, U.S. Bureau of Reclamation, U.S. Department of the Interior

    My name is Mark Limbaugh and I am the Director of External and 
Intergovernmental Affairs of the Bureau of Reclamation (Reclamation). I 
am pleased to present the Department's views on H.R. 4910 which 
authorizes the Secretary to revise a repayment contract with the Tom 
Green County Water Control and Improvement District No. 1 (District) at 
Reclamation's San Angelo Project, Texas.
    The San Angelo Project (Project) was authorized by the Congress in 
1957 to provide flood control, municipal and industrial water for the 
City of San Angelo, recreation, fish and wildlife, and supplemental 
irrigation supplies to the District. The Project has been beset by 
chronic drought conditions since it was constructed in 1963. These arid 
conditions have resulted in Reclamation granting a total of seven 
deferments of the annual installments due on the District's forty-year 
repayment contract. During the past six year's alone, four deferments 
for the District's annual payment to the United States have been 
granted because of the unavailability of irrigation water. Section one 
of H.R. 4910 provides some immediate financial relief to the District 
by extending its contract with Reclamation by ten years and thereby 
reducing its annual payment to the United States. Extension of the 
repayment period will not likely be a permanent solution to the water 
scarcity facing this project. However, taking this action will give 
Reclamation some time to access the project's long-term challenges and 
will aid the District by providing needed repayment relief.
    Therefore, the Department supports H.R. 4910. I would also add that 
Section two of the bill does not apply to the District, and should be 
deleted. This language was taken from legislation previously passed to 
address a repayment situation with the City of San Angelo. However, the 
particulars of the two situations are different, and section two should 
therefore be struck from the bill.
    Mr. Chairman, thank you again for the opportunity to present the 
Department's views on H.R. 4910.
                                 ______
                                 
    Mr. Calvert. Well, I have reviewed your testimony and the 
legislation. I will make this real simple. I support it. We 
intend to mark it up here shortly after our next hearing and we 
will move this legislation to the Full Committee where I am 
sure we will be able to move it very rapidly.
    I want to thank all of you for coming today and for your 
testimony.
    Mr. Stenholm. Thank you, Mr. Chairman. We would like the 
entire statement of Mr. Friend's to be made part of the record 
as submitted. Some of the pictures show some of the 
deterioration that they are working on now with their own 
money, and that is part of the record also.
    Thank you for your courtesy.
    Mr. Calvert. Certainly, without objection.
    Mr. Osborne does have a question.
    Mr. Osborne. Yes. I don't want to take a lot of time here, 
but just one quick question, probably for either Mr. Friend or 
Mr. Stenholm.
    I share some of your concerns, you know in Nebraska we are 
running into the same situation. If you are only getting eight 
inches of water, sometimes it seems to me that everybody dies a 
slow death.
    Is there any possibility to cut back on irrigated acres? I 
know that is very contentious, but I have an area in Nebraska 
where we have about 40,000 acres being irrigated out of one 
aquifer and there is only enough water for about 20,000. So, 
everybody is getting just a little bit and they are all losing 
money. Anyway, I wondered if that applies to your situation or 
not?
    Mr. Stenholm. Mr. Osborne, it does apply. I am glad you 
mentioned that. Several of our farmers have eliminated 
irrigating some particular fields altogether and placing the 
additional amount of water that might be allocated to that 
field to a different field, just to have an adequate amount of 
water.
    So, we have several farm tracts that are eligible farm 
tracts to receive water in the district that are receiving no 
water because of that particular fact.
    Thank you for asking.
    Mr. Osborne. Thank you.
    Mr. Calvert. The issue of fallowing is probably something 
we will be talking about later, Mr. Osborne. Thank you.
    I thank this panel. We will move this legislation as soon 
as possible and have it to the full floor to execute this as 
soon as we can.
    Mr. Stenholm. Thank you, Mr. Chairman.

STATEMENT OF KEN CALVERT, A REPRESENTATIVE IN CONGRESS FROM THE 
                      STATE OF CALIFORNIA

    Mr. Calvert. The next item we will discuss is of great 
importance to California and certainly to the region I 
represent and to my colleagues who are going to go down to the 
dais as I give my opening statement, Mr. Hunter and Mrs. Bono.
    The next item, of course, is H.R. 5123 relating to the use 
of Colorado River and the Salton Sea. The water transferred 
between the Imperial Irrigation District and the other southern 
California water agencies is a critical component of the plan 
for California to reduce its annual diversion of the Colorado 
River from the current 5.2 million acre-feet to its annual 
apportionment or 4.4 million acre-feet.
    However, some argue that the transfer should be linked to 
the continued existence of the Salton Sea. This Subcommittee 
has conducted six hearings in the last year and a half, with 
three being held out west, regarding the California 4.4 Plan. 
We have been told numerous times that the quantification 
settlement agreement, QSA, would be completed by this December.
    In addition, Congress is still waiting for the Salton Sea 
restoration plan report. The completed report has been promised 
to Congress by the previous administration and the current 
administration.
    Last December at a hearing in Las Vegas we were told that 
the report would be available no later than January of this 
year, yet it still has not come. The Salton Sea Reclamation Act 
of 1998 provided a report deadline of January 1, 2000. The 
Congress has been very patient in waiting for the completion of 
the report, but our patience is running out.
    The Salton Sea Reclamation Act of 1998 clearly indicates 
that it was never the intent of Congress for the California 
water agencies involved in the water transfers to be 
responsible for the restoration of the Salton Sea.
    The situation we have with the Salton Sea is a great 
paradox. Regardless of the actions associated with the 
transfer, the Salton Sea as we know it today will change 
significantly in the next 20 to 40 years. The only difference 
with the transfer involved is the amount of time before the 
Salton Sea reaches a salinity level that will not sustain the 
ecosystem as we know it today.
    It is time to start thinking outside of the box on this 
issue. The water transfer should not be stopped or be required 
to mitigate all impacts on the evolving sea. The sea is going 
to change regardless of the transfers.
    H.R. 5123 proposes a goodwill contribution by the agencies 
involved in the transfer to provide $50 million in assistance 
for the regional environment. This will allow the agencies to 
move forward with the California plan while all of us continue 
to address the challenges of the Salton Sea.
    Mr. Hunter has provided a solution. I expect the witnesses 
today to discuss and critique this bill and offer viable 
solutions, if needed, to improve it.
    In addition, I expect by no later than mid-September a 
viable plan to be submitted to this Subcommittee on the 
implementation of the QSA.
    It is unacceptable that the previous administration failed 
to provide Congress and the current administration a preferred 
alternative on the Salton Sea restoration. I expect a plan from 
the administration identifying a preferred alternative by 
October first of this year.
    I certainly look forward to our two witnesses that will be 
discussing the sea.
    First, I will recognize Mr. Hunter who put this bill 
forward, for 5 minutes. Then, our colleague, Mrs. Bono.
    [The prepared statement of Mr. Calvert follows:]

 Statement of the Hon. Ken Calvert, a Representative in Congress from 
                        the State of California

    Today we will hear testimony on two unrelated bills.
    First, H.R. 4910, to authorize the Secretary of the Interior to 
revise a repayment contract with an irrigation district in Texas.
    The next item we will discuss is one of great importance to the 
water security and economic well being of southern California and the 
Country. H.R. 5123 relates to California's use of Colorado River water 
and the Salton Sea.
    The water transfer between the Imperial Irrigation District and 
other southern California water agencies is a critical component of the 
plan for California to reduce its annual diversion of Colorado River 
water from the current 5.2 million acre feet to its annual 
apportionment of 4.4 million acre feet. However, some argue that the 
transfer should be linked to the continued existence of the Salton Sea.
    This Subcommittee has conducted six hearings in the last year and a 
half with three being held out west regarding the California 4.4 Plan. 
We have been told numerous times that the Quantification Settlement 
Agreement (QSA) would be completed by this December.
    In addition, Congress is still waiting for the Salton Sea 
Restoration Plan Report. The completed Report has been promised to the 
Congress by the previous administration and the current administration. 
Last December at a hearing in Las Vegas, we were told that the Report 
would be available no later than January of this year, then later in 
the spring, yet it still has not come. The Salton Sea Reclamation Act 
of 1998 provided a report deadline of January 1, 2000. The Congress has 
been very patient in waiting for the completion of the report, but our 
patience is running out.
    The Salton Sea Reclamation Act of 1998 clearly indicates that it 
was never the intent of Congress for the California water agencies 
involved in the water transfer to be responsible for restoration of the 
Salton Sea. Section (3) of the Act states:
        In evaluating options, the Secretary shall apply assumptions 
        regarding water inflows into the Salton Sea Basin that 
        encourage water conservation, account for transfers of water 
        out of the Salton Sea Basin, and are based on a maximum likely 
        reduction in inflows into the Salton Sea Basin which could be 
        800,000 acre-feet or less per year.
    The situation we have with the Salton Sea is a great paradox. 
Regardless of the actions associated with the transfer, the Salton Sea 
as we know it today will change significantly in the next 20 to 40 
years. The only difference with the transfer involved is the amount of 
time before the Sea reaches a salinity level that will not sustain the 
ecosystem, as we know it today.
    It is time to start thinking outside of the box on this issue. The 
water transfer should not be stopped or be required to mitigate all the 
impacts of an evolving Sea. The Sea is going to change regardless of 
the transfers.
    H.R. 5123 proposes a good will contribution by the agencies 
involved in the transfer to provide 50 million dollars in assistance 
for the regional environment. This will allow the agencies to move 
forward with the California Plan while all of us continue to address 
the challenges of the Salton Sea.
    It is time to not just critique solutions but provide viable 
recommendations. Duncan Hunter has provided us a solution and I expect 
the witnesses today to discuss and critique this bill and offer viable 
solutions if needed, to improve it.
    In addition I expect, by no later than mid-September, a viable plan 
to be submitted to this subcommittee on the implementation of the QSA.
    It is unacceptable that the previous administration failed to 
provide Congress and the current administration, a preferred 
alternative on the Salton Sea Restoration. I expect a plan from the 
administration identifying a preferred alternative by October 1, 2002.
    I look forward to hearing from our witnesses.
                                 ______
                                 

 STATEMENT OF DUNCAN HUNTER, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Hunter. Thank you, Mr. Chairman. I have a written 
statement for the record. I would ask that it be submitted and 
I would simply talk to the issue.
    Mr. Calvert. Without objection, it is so ordered.
    Mr. Hunter. Thank you. It is good to be here with you and 
the Subcommittee and my good friend, Mary Bono, who has worked 
on this issue tirelessly. In fact, we have all probably put 
more hours in on the Greater Salton Sea problem than any other 
southern California issue over the last several years.
    Mr. Chairman, you laid out the backdrop against which this 
legislation is offered very effectively. We have the 4.4 Plan 
that we in California must comply with. We must be in 
compliance by the end of the year or we stand to lose 800,000 
acre-feet of water.
    Now, a number of years ago we started the Salton Sea 
Restoration Project. We initiated legislation and Mrs. Bono was 
very key to this and you were and the other members of the task 
force for the Salton Sea initiated legislation that set in play 
the program under which the administration would come up with a 
plan to save the Salton Sea and presumably then we and the 
Federal Government and the State government would divide that 
fiscal responsible, or fiscal burden. We would pay, we would 
begin to move forward on the plan and we would save the sea.
    It was never contemplated that the water transfer that now 
is a cornerstone to compliance with the 4.4 Plan would precede 
the saving of the Salton Sea. It was always contemplated, 
because this was back in the 1990's that we would have this 
plan in place and moving to save the Salton Sea, that in fact 
there wouldn't be any burden on the water transfer because the 
initiative workups that we did on saving the sea were all done 
with charts and figures and information and analyses that 
contemplated the water transfer and said, ``Here is what we are 
going to have to do to meet the salinity problems and the other 
problems associated with the sea in the context of the water 
transfer.''
    Now, what happened? Things don't always come about in neat 
packages in government operations. Now we have the transfer 
preceding the sea.
    I think it is appropriate to talk just a little bit about 
the people of the Imperial Valley and the role of the IID, 
which is the farming area in southern California which is 
immediately to the east of the San Diego urban community. This 
is an area which is the most productive agricultural area, 
arguably, in the world, with massive production, the very 
finest of America farming techniques, sharing that big basin 
with the Coachella Valley Irrigation District.
    For practical purposes, the IID, the Imperial Irrigation 
District, is the people of Imperial County. The irrigation 
district is not owned by a few people. The voters are not a 
limited class or pool of people. It is all the voters in 
Imperial County.
    Now, the voters of Imperial County and the people of 
Imperial County who have invested their lives there have always 
worried that at some point the cities would force them to put 
their land back to desert, to take these fields that their 
forebears put in and the frontier that was the Imperial Valley 
in the early 1900's, that that would revert back to desert in 
order to send water to the cities in the same way that Owens 
Valley was permanently rendered a desert for the benefit of Los 
Angeles.
    And so when the people of Imperial Valley were asked to put 
together some conservation measures and take the fruits of 
those conservation measures and transfer those to thirsty 
people in the cities, they were very concerned.
    They, through their representatives said, this cannot be 
done by sending part of our farmland back to desert. It can't 
be done by fallowing. The answer was always ``no, we are going 
to ask you to do what we have always asked you to do which is 
put in more conservation measures such as water pump back 
systems, lining of canals and what is known as on-farm 
conservation practices.''
    The people of Imperial Valley were so concerned that they 
were being tricked into fallowing or would be forced into 
fallowing that they even put into the contract which they 
ultimately signed, which is today signed and executed with the 
other water districts, that this would not take place through 
fallowing; that they would be allowed to do on farm 
conservation.
    Indeed, for years they were threatened with lawsuits if 
they didn't conserve water and didn't put in more conservation 
measures.
    Now, time marches on and we now have this emergency before 
us in that we have to comply with the 4.4 Plan by the end of 
December or be penalized. The lynchpin of that compliance is 
the water transfer. The people of Imperial Valley stand ready 
to do on-farm conservation, to do what they promised they would 
do and signed their name to. They are people that sign their 
names and live up to their agreement.
    But they have now been told that there has been a change. 
The reason there has been a change is because our Fish and 
Wildlife people can't figure out a way to mitigate the effects 
on the endangered species that inhabit the Salton Sea, there is 
not a way to mitigate the effects of the water transfer.
    Well, the first thing that Imperial Valley said was, ``Wait 
a minute, the Salton Sea Program was supposed to fix the Salton 
Sea.'' And the Federal Government said essentially, ``We are 
not quite there yet; we are going to wait on you this time.''
    So, the real problem we have here is that it is going to 
cost a lot of money to restore the Salton Sea, maybe $1 
billion. We have a transfer that must go forward. The question 
is: Where does the financial burden need to be placed to 
mitigate the Salton Sea and restore the Salton Sea? Should it 
be on the transfer and if so, how much of it? Or should it be 
on the Federal and State governments as we always contemplated.
    Essentially, in the end this is a vision of dollars, who 
pays for what. Now, the problem here is this: When you have 
endangered species and you have the Fish and Wildlife work for 
a year, IID worked for a year, the State Fish and Game worked 
for a year. They thought they were close at one time, at least 
according to the Imperial Irrigation District, at solving the 
endangered species problem with a $100 million-plus plan that 
now would be carried by the water transfers, by the agencies.
    In the end, the Fish and Wildlife said, ``No, you can't 
feed pelicans out of ponds, this won't work.''
    Now, if you accept them at their words and State Fish and 
Game said, ``We can't find a way to mitigate for this,'' what 
you have is a business deal that must go forward and yet it is 
hampered by the one thing that keeps any business deal from 
going forward and that is total uncertainty.
    Is the exposure for the water transfer in the agencies, 
Coachella and Met and San Diego and IID and the people that 
they represent, is that going to be exposed to billion dollar 
judgments in the future because of the water transfer and the 
lowering of the Salton Sea? Are we going to maybe get through 
the night by making an agreement for the first couple of years 
and then find a new endangered species in 2010 that brings 
about a $500 million or billion dollar judgment in mandate for 
increased expenses?
    So, you have the one thing that keeps a business deal from 
going forward and that is total uncertainty. My bill, Mr. 
Chairman and my colleagues, we don't know how to save the 
Salton Sea yet. That is admitted by all parties. Mr. Kirk 
behind me doesn't know how to save the sea. They have not come 
to a solution. The Interior Department just wrote us and said, 
``We don't have the solution yet. We are working, but we don't 
have it.''
    So, here is what we have to do. In the midst of this 
uncertainty, we have to move forward with some certainty. The 
way to do it is in a very practical, common sense way, and that 
is to say this: Let's come up with a number that the water 
transfer itself the agencies have to carry, that they will put 
into the pot, is it $10 million, $20 million, 30 million? And 
when they do that, they have satisfied their requirement under 
the Endangered Species Act.
    Now, the Endangered Species Act, for people who are 
concerned about the environment and fish and game, is not 
halted, is not bared, is not limited at that point, but any 
additional expenses that go to saving the sea have to be paid 
by the entities that were supposed to pay them in the first 
place, which is the Federal Government and the State government 
in California.
    So, I have put in my bill $50 million. The agencies, when 
they pay in $50 million into the pot, when they deliver that to 
Fish and Wildlife and State Fish and Game to develop their 
practices, they are done and the transfer can then go forward 
and it can go forward on a permanent basis.
    Now, my good colleague, Mary Bono, has a real concern about 
the dust situation because as the Salton Sea recedes, you have 
that shoreline exposed. With the wind conditions that exist in 
that basin that we share, she is concern, and rightfully, about 
her constituents and about the dust problem that might cause.
    So, I have put into this bill a total section on mitigation 
of wind erosion and dust storms. We have required that there be 
a plan put in place for ground cover on this exposed shoreline 
and that that ground cover be worked into a fish and wildlife 
habitat with marshes and upland game birds, plants and that 
that be done in coordination with State Fish and game and that 
that habitat that is created by putting vegetation on that 
exposed shoreline can be turned into a plus in terms of giving 
an environment for anglers, for hunters, for bird watchers and 
other recreationists.
    So, we have tried to address the dust problem in this 
legislation. So, Mr. Chairman, very simply, against this 
backdrop of total uncertainty, at a time when we need certainty 
so that we can move forward, that is what this bill provides.
    I would hope that we could move it through the process and 
put it in place and then move forward over the next five or 10 
years to save the Salton Sea, using that $50 million. It is the 
first substantial upfront money that will have been put into 
this pot by any group.
    So, thank you, Mr. Chairman, and members of the Committee.
    [The prepared statement of Mr. Hunter follows:]

 Statement of Duncan L. Hunter, a Representative in Congress from the 
                          State of California

    Mr. Chairman and Members of the Subcommittee, thank you for holding 
this hearing on HR 5123, the Colorado River Quantification Settlement 
Facilitation Act. This legislation is absolutely critical to 
California's water security and to ensure that the State reduces its 
excess use of the Colorado River.
    As you know, for years, Colorado River Basin states have been 
increasing pressure on California to live within its basic 
apportionment of 4.4 million acre feet (MAF) annually from the River. 
California currently uses an average of 5.2 million acre feet. The 
nearly 800,000 acre feet (AF) of water over the 4.4 MAF apportionment 
has been used by the growing urban populations of Los Angeles and San 
Diego.
    Initially, California was able to exceed its annual share because 
Nevada and Arizona had not fully developed their apportionments, and 
under the Law of the River, California could temporarily claim their 
unused shares. However, since 1997, both Nevada and Arizona have made 
full use of their apportionments. The excess water to meet Southern 
California's urban needs now comes mainly from Colorado River flows 
that the Interior Secretary has declared a surplus. The Secretary can 
declare a surplus when there is enough water in Colorado River 
reservoirs to meet needs in excess of the 7.5 MAF apportioned to the 
Lower Basin.
    Pressure from the Basin states and the Department of Interior 
eventually brought the State of California and its water agencies 
together to develop the Quantification Settlement Agreement (QSA). In 
1999, the State of California, the Imperial Irrigation District, the 
Coachella Valley Water District (CVWD), the San Diego County Water 
Authority (SDCWA) and the Metropolitan Water District (MWD) agreed to 
the ``Key Terms'' of the QSA. The QSA has became the core of the 
California Colorado River Water Use Plan, the blueprint for bringing 
the state within its 4.4 MAF apportionment.
    The execution of the QSA requires a number of objectives to be met, 
including the completion of all the state and federal environmental 
documentation and permitting for required water transfers. Those 
include an annual 200,000 AF IID to San Diego transfer, an existing 
IID-MWD 110,000 AF transfer and an additional 126,000 AF to Coachella 
Valley. An additional 94,000 AF will be made available by lining the 
All American and Coachella canals. The transfers, made possible largely 
through increased on-farm efficiency and other conservation measures, 
will generate a total of 539,000 AF of badly needed water within 
California.
    The Key terms mandate that the QSA must be finalized by December 
31, 2002. Completion by that date allows California a 15 year grace 
period to gradually ramp down to 4.4 MAF of annual use. Should the 
deadline not be met, the Secretary of Interior would be forced to 
immediately cut California's surplus use of the River on January 1, 
2003. Such an event would mean an immediate 800,000 AF cut of flows to 
California, causing an immediate State water crisis affecting the 
economy of the entire Southwest.
    For my constituents in the Imperial Valley, the concept was simple: 
Help California reduce its excess use of Colorado River water through 
the sale of conserved water to rapidly growing urban neighbors. To 
carry out both of these goals, farmers in the Imperial Valley, among 
the most productive in the world, agreed to irrigate the same amount of 
land with less water by implementing conservation measures, such as 
pump back systems and lining irrigation canals. These measures would be 
expensive, but could be paid for by proceeds from the water sales.
    Normally, agricultural communities tend to look with suspicion on 
efforts by urban interests to acquire more water. However, to gain the 
trust and assistance of Imperial Valley residents, already suffering 
the highest unemployment levels in California, they were promised that 
under no circumstances would fallowing be forced upon them as a means 
of providing water to San Diego and Los Angeles. To this end, the IID-
San Diego transfer agreement specifically prohibited fallowing as an 
option.
    The water agencies proceeded as originally planned toward 
completion of the QSA, but they ran into unanticipated regulatory and 
environmental problems that placed the QSA at risk of failure. The key 
problem lies in the water conservation measures required of Imperial 
Valley farmers to provide water for the transfers. The Salton Sea's 
sole inflow is agriculture run-off. To implement the required on-farm 
conservation measures would mean a reduction of run-off from farms, 
hence a reduction of inflows to the Salton Sea. To compound the 
problem, the Sea is a terminal lake - meaning it has no out flow - and 
salinity levels are steadily rising at a rate that will cause this 
prolific fishery to go hyper-saline unless a restoration plan is 
implemented. The water transfers will likely hasten the coming date at 
which species will not survive at the Sea.
    These complications were not anticipated since the Salton Sea 
Reclamation Act of 1998 (P.L. 105-372) established the rehabilitation 
of the Sea as a federal responsibility and required the Department of 
Interior to develop a final restoration plan, allowing for reduction of 
inflows of up to 800,000 AF to the Sea, by January 1, 2000. The water 
agencies had depended on Interior complying with the law and having a 
complete plan for the Sea in place. However, Interior has failed to 
finalize a plan for the Sea, and is now more than 2 + years over due. 
Given these complications resulting from an absence of a Salton Sea 
plan, it appeared federal legislation would be needed to ensure that 
water agencies would not be held responsible for rehabilitation of the 
Sea and to ensure successful completion of the QSA.
    As a result, nearly two years ago at the request of Southern 
California water agencies, I agreed to introduce legislation to assist 
in the implementation of the QSA. I worked with my friends and 
colleagues, Representatives Jerry Lewis, Ken Calvert and Mary Bono, as 
well as water agencies and the Salton Sea Authority to develop 
legislation to provide water security to the Colorado River Basin and 
to minimize impacts to the Salton Sea. The result of our work was the 
Colorado River Quantification Settlement Facilitation Act, which I 
recently made revisions to and reintroduced to gain additional support. 

Key provisions of H.R. 5123 are:
    <bullet> $60 million for mitigation for possible airborne dust 
from exposed shorelines resulting from water transfers, and for habitat 
enhancement projects benefitting wildlife at the Salton Sea.
    <bullet> $57 million for construction of off-stream reservoirs 
near the All-American Canal to maximize use of the Colorado River.
    <bullet> A division of responsibility for mitigation of impacts to 
the Salton Sea, providing for a $50 million contribution by water 
agencies and ensuring Federal and State responsibility for additional 
needs.
    Absent certainty of passage of this legislation, the Imperial 
Irrigation district has stepped up its efforts over the past year to 
pro-actively negotiate a successful completion of the QSA with the 
Department of Interior and the State of California. However, federal 
and state regulatory agencies have recently expressed a reluctance to 
allow for proposed mitigation for impacts the water transfers may have 
on the Salton Sea. As a result, Interior, the State and others have 
been pushing Imperial Valley to fallow great portions of their 
agriculture acreage in order to provide the needed water to send to the 
cities - or face seizure of the water with no obligation of payment. 
Such action would cause incredible damage to a community already beset 
with widespread economic woes. To force them to fallow land without 
just compensation would eliminate hundreds of jobs and cost the County 
millions of dollars they do not have.
    Opponents of this legislation are quick to find fault with my 
desire to protect farmers in my district from excessive lawsuits and 
from bearing the entire burden of Endangered Species Act impacts 
resulting from the water transfers. To those, I would ask what action 
they would take if their communities were faced with the hardship that 
my constituents have endured? For years, Imperial Valley farmers have 
been threatened with lawsuits for ``wasting'' too much water. Now that 
they have acted in good faith to implement water efficiency practices 
so that their urban neighbors will gain additional water for their 
growing needs, my farmers are faced with billion dollar lawsuits for 
conserving water. My constituents are unfairly trapped in this cruel 
cross fire and they must be protected. A poor community of less than 
200,000 people cannot afford to carry the entire liability for the 
transfer they are now required to implement.
    Again, I thank my friend Chairman Calvert for holding this hearing 
on this critical piece of legislation, and I invite those interested in 
assisting California to meet this December 31 deadline to work with me 
to see it through without needlessly punishing an undeserving 
community. I encourage your ``aye'' vote on H.R. 5123.
                                 ______
                                 
    Mr. Calvert. We thank the gentleman.
    Mrs. Bono, you are recognized.

 STATEMENT OF MARY BONO, A REPRESENTATIVE IN CONGRESS FROM THE 
                      STATE OF CALIFORNIA

    Mrs. Bono. I want to thank you, Chairman Calvert, for 
allowing me to testify today on H.R. 5123. I especially want to 
thank you and my colleague, Duncan Hunter, for all of your 
continued efforts and focus on the Salton Sea and the issue of 
the QSA.
    I would also like to thank Congressman Miller for his 
leadership and his help with this complex issue as well.
    All of us agree that California must take meaningful steps 
toward reducing its usage on Colorado River water. The QSA is 
the key component to do just this. Therefore, I understand the 
need for several of the provisions within the legislation 
before us today.
    H.R. 5123, the Colorado River Quantification Settlement 
Facilitation Act, brings to the forefront several important 
issues we must contend with. While I appreciate Mr. Hunter's 
attempts to address my concerns related to air quality, I still 
cannot support this bill in its current form.
    My concerns surrounding the issue of these water transfers 
in the bill have always been the possible denigration of air 
quality in the Coachella and Imperial Valleys and the lack of a 
plan to address this probability. Many community groups, like 
the American Lung Association, have voiced their concerns about 
possible air quality impacts.
    Tragically, Imperial County's childhood asthma 
hospitalization rate is already more than twice as high as the 
State average. Therefore, while the Salton Sea serves a great 
purpose in benefiting many species and plant life inhabiting 
it, the key factor for me is the impact barren parts of the sea 
will have on our air quality.
    Some individuals believe that the sea will die anyway, with 
or without these water transfers and therefore should not be 
consideration. But there are serious consequences of a dead 
sea. Owens Valley, according to the EPA, is the dustiest place 
in the United States, having about 75 square miles of exposed 
land. The Salton Sea, if all of the water transfers continue 
without mitigation, faces over 105 square miles of exposed sea 
surface.
    Therefore, while there is a legitimate question of how we 
can restore the sea, a dead sea could eclipse Owens Valley as 
the dustiest place in the United States.
    If we don't fact this concern head on while facilitating 
these water transfers, our community will potentially have high 
financial and health costs to pay later on.
    Mr. Hunter's bill mandates marshes and ground cover to 
address the effects of wind erosion. However, I do not believe 
we have a complete understanding of how to best address and 
reduce shoreline as it relates to air quality, nor do we have 
any facts as to what kind of an impact these transfers will 
have on our sea or on our air.
    Therefore, H.R. 5123 prescribes a solution when we don't 
fully understand the type of degree of the problem. In 
addition, H.R. 5123 releases the water districts from liability 
with concerns to the impacts of these water transfers.
    While IID should not bear the lion's share of this burden, 
the district should be assessed a justifiable measure of 
responsibility for mitigation costs and environmental 
liabilities.
    However, in addition to IID, the end users, as well as the 
State and Federal Government also have an obligation to provide 
financial assistance in any mitigation effort. Recently, MWD, 
San Diego Water and the Coachella Valley Water District, as 
well as Senator Feinstein, recommended an alternative form of 
fallowing as an option to achieve this goal.
    I understand the concerns of farmers and businesses in the 
Imperial Valley. You have an obligation to evaluate the 
negative impacts of fallowing as well. However, I also believe 
all options should be placed upon the table so we can formulate 
an effective response which, perhaps, contains within it a 
variety of concepts.
    I am encouraged by the talks that four water districts have 
engaged in. As is usually the case, the best solution to these 
problems comes from the local and not the Federal level. It is 
my firm belief that we can move ahead with water transfers and 
maintain the air quality in the region.
    My concern with this legislation primarily is that we are 
jumping the gun and not following through with good public 
policy.
    So, again, Mr. Chairman, thank you very much for allowing 
me to testify and for working so hard on this issues.
    [The prepared statement of Ms. Bono follows:]

  Statement of Hon. Mary Bono, a Representative in Congress from the 
                          State of California

    I would like to thank Chairman Calvert for allowing me to testify 
today on H.R. 5123. Mr. Chairman, I appreciate all the time and work 
you have devoted to this issue.
    All of us agree that California must take meaningful steps towards 
reducing its usage on Colorado River water. The Quantification 
Settlement Agreement is the key component to do just this. Therefore, I 
understand the needs for several of the provisions within the 
legislation before us today.
    H.R. 5123, the ``Colorado River Quantification Settlement 
Facilitation Act'' brings to the forefront several important issues we 
must contend with. And while I appreciate Mr. Hunter's attempts to 
address my concerns related to air quality, I still cannot support this 
bill in its current form.
    My concerns surrounding the issue of these water transfers and this 
bill has always been the possible denigration of air quality in the 
Coachella and Imperial Valleys, and the lack of a plan to address this 
probability. Many community groups, like the American Lung Association, 
have voiced their concerns about possible air quality impacts. 
Tragically, Imperial County's childhood asthma hospitalization rate is 
already more than twice as high as the state average.
    Therefore, while the Salton Sea serves a great purpose in 
benefitting many species and plant life inhabiting it, the key factor 
for me is the impact barren parts of Sea will have on our air quality.
    Some individuals believe the Sea will die anyway, with or without 
these water transfers, and therefore should not be a consideration. But 
there are serious consequences of a ``dead Sea''.
    Owen's Valley, according to the Environmental Protection Agency, is 
the dustiest place in the United States, having about 75 square miles 
of exposed land. The Salton Sea, if all the water transfers continue 
without mitigation, faces over 105 square miles of exposed Sea surface. 
Therefore, while there is a legitimate question of how we can restore 
the Sea, a ``dead Sea'' could eclipse Owens Valley as the dustiest 
place in the U.S. If we don't face this concern head on while 
facilitating these water transfers, our community will potentially have 
high financial and health costs to pay later on.
    Mr. Hunter's bill mandates marshes and ground cover to address the 
effects of wind erosion. However, I do not believe we have a complete 
understanding of how to best address a reduced shoreline as it relates 
to air quality nor do we have any facts as to what kind of an impact 
these transfers will have on the Sea or on our air. Therefore, H.R. 
5123 prescribes a solution when we don't fully understand the type or 
degree of the problem.
    In addition, H.R. 5123 releases the water districts from liability 
with concern to the impacts of these water transfers. While IID should 
not bear the lion's share of this burden, the district should be 
assessed a justifiable measure of responsibility for mitigation costs 
and environmental liabilities. However, in addition to IID, the end 
users, as well as the state and federal government, also have an 
obligation to provide financial assistance in any mitigation effort.
    Recently, MWD, San Diego Water and the Coachella Valley Water 
District, as well as Senator Feinstein, recommended an alternative form 
of fallowing as an option to achieve this goal. I understand the 
concerns of farmers and businesses in the Imperial Valley. We have an 
obligation to evaluate the negative impacts of fallowing as well. 
However, I also believe all options should be placed upon the table so 
we can formulate an effective response which, perhaps, contains within 
it a variety of concepts.
    I am encouraged by the talks the four water districts have engaged 
in. As is usually the case, the best solution for these problems comes 
from the local, not federal, level. It is my firm belief we can move 
ahead with water transfers and maintain the air quality in the region.
    Again, Mr. Chairman, thank you for allowing me to testify and for 
working so hard on this issue.
                                 ______
                                 
    Mr. Calvert. I thank the gentle lady.
    Without objection, both of you, if you would like to come 
to the dais and join us with the other witnesses after any 
questions from the Members.
    Are there any questions at this time for the two Members?
    [No response]
    Mr. Calvert. Please join us. Come on up. While you are 
coming up, we will have Mr. Bob Johnson, the Regional Director 
of the Lower Colorado Region, Bureau of Reclamation come 
forward.
    Welcome, Mr. Johnson. You may begin your testimony at any 
time.

STATEMENT OF BOB JOHNSON, REGIONAL DIRECTOR FOR LOWER COLORADO 
   REGION, BUREAU OF RECLAMATION, U.S. DEPARTMENT OF INTERIOR

    Mr. Johnson. Mr. Chairman, it is my pleasure to be here and 
represent the Department of Interior on these important 
matters. I would like to ask that my written testimony be 
submitted for the record and I would provide a summary of that.
    Mr. Calvert. Without objection, it is so ordered.
    Mr. Johnson. We are very appreciative of the Committee and 
Congressman Hunter's efforts to address this difficult issue. 
The department continues to keep all options open as it relates 
to getting to the end date of putting the quantification 
settlement agreement in place, including legislative action.
    We are not in a position to offer specific comments on this 
legislation today. We are committed to provide specific 
comments as soon as possible.
    The complex nature of the issues that are included in the 
legislation requires more thorough review by a variety of 
government agencies. We need a little more time to be able to 
response specifically.
    What I would like to do is spend a little bit of time 
reviewing where we are on the implementation of the QSA and the 
ESA compliance and also the status of our activities related to 
Salton Sea restoration studies.
    To date the ESA compliance has been pursued under Section 
10, Compliance, by the Imperial Irrigation District. They have 
been working to obtain permits for 96 species that are located 
in the area of the Imperial Valley and the Salton Sea.
    This approach has been difficult and unsuccessful to date. 
The IID and the Fish and Wildlife Service and the State Game 
and Fish have been unable to come up with solutions for 
mitigating the impacts of species, especially those located on 
the Salton Sea, when on-farm conservation measures are 
implemented within Imperial.
    There is, of course, as we mentioned earlier, an approach 
that could be followed that would help resolve that issue. That 
would be for Imperial to use fallowing of farmland as a means 
to obtain the water for the transfers. That is a complicated 
issue.Imperial farmers and the Imperial community obviously 
have some concerns about the local economic impacts. That is 
still an option that is out there.
    I know some interim fallowing programs are being proposed 
and we are open to considering and working on those 
alternatives.
    We have initiated recently a Section 7 consultation 
process. We submitted a biological assessment to the Fish and 
Wildlife Service just this week. We are partnering with the 
California entities to try to pursue Section 7 compliance.
    Section 7 is a Federal process, not a local process. We are 
able to reduce the number of species that we are trying to 
address from 96 to 4 and we think the identification of 
conservation measures to mitigate for a smaller number of 
species will be much easier. We are hopeful that that process 
can conclude in achieving ESA compliance for both us as well as 
obtaining permits for the agencies to be able to execute the 
QSA.
    It does not provide the assurances that the Section 10 
process does, but it is a vehicle to get to the signing of the 
QSA by the end of the year. The Salton Sea is a important 
resource and I would like to just quickly reiterate our 
perspective as it relates to the Salton Sea and the transfers.
    It has been said earlier, and we agree with the statement 
that the transfers are not responsible for the impacts to the 
Salton Sea. The Salton Sea is deteriorating with or without the 
transfers. The Salton Sea restoration effort is the vehicle to 
address that broader restoration effort.
    We do think that the transfers have to address the impacts 
of endangered species and obtain compliance with both the State 
ESA law as well as the Federal ESA law.
    Impacts on the Salton Sea do impact species, and from that 
standpoint the Salton Sea is linked to the transfers. We are 
hoping that, as I said earlier, our Section 7 process can get 
to a solution that will allow Imperial to implement on-farm 
conservation measures and at the same time achieve compliance 
with the ESA.
    Mr. Chairman, I see that I am about out of time. I think I 
will conclude my remarks with that and be glad to try to 
respond to questions.
    Mr. Calvert. I thank the gentleman.
    [The prepared statement of Mr. Johnson follows:]

Statement of Robert Johnson, Regional Director, Lower Colorado Region, 
          Bureau of Reclamation, U.S. Department of Interior.

    My name is Robert Johnson and I am Regional Director of Bureau of 
Reclamation's Lower Colorado Region. I am pleased to provide the 
Administration's views on H.R. 5123. The Lower Colorado Region office 
is integrally involved with the administration of the Colorado River 
and has worked closely with representatives of California regarding 
their implementation of the California Colorado River 4.4 Plan and 
associated issues related to the Salton Sea. The Department testified 
in earlier field hearings regarding these matters and I will endeavor 
to not repeat the information provided and submitted for the record in 
those proceedings. I refer the Subcommittee to that testimony if you 
desire a more complete background and understanding of the issues being 
addressed by the California 4.4 Plan.
    The Department is very appreciative of Congressman Hunter's and 
this Subcommittee's efforts to assist in resolving these very difficult 
issues affecting southern California as well as six other Colorado 
River Basin States. H.R. 5123 offers some interesting approaches to 
addressing some of those outstanding issues. However, because of the 
complexity and limited time for a comprehensive review of the bill, the 
Administration is not prepared to offer specific comments or positions 
on the bill's provisions. We would be pleased to provide a more 
detailed analysis in the near future.
    I can report, however, that the Department remains committed to 
working toward resolution of the issues addressed by the proposed 
legislation. We continue to keep all options open regarding resolution 
of the issues, including legislative approaches. However, because it is 
unlikely that legislation will be enacted before the end of the year, 
we cannot rely on legislative remedies. We are focusing our energies on 
finding solutions within the existing legal framework and our existing 
authorities under federal law.
    I would like to provide the Committee with a summary and update on 
our ongoing activities as it relates to both federal Endangered Species 
Act (ESA) issues along with and ongoing efforts to define a plan for 
Salton Sea restoration.
Endangered Species Act Activities
    Significant work regarding the potential impacts of California 4.4 
Plan water transfers on the Salton Sea have been conducted thus far 
between IID and the U.S. Fish and Wildlife Service under Section 10 of 
the ESA. Under this section10 process, IID has sought to receive ESA 
permits that cover up to 96 species and obtain assurances that future 
changes in conditions affecting any of the species will not require 
further commitments from IID.
    As you know, this process has encountered significant difficulty. 
The underlying water transfer agreements call for farmers in IID to 
implement on-farm water conservation activities through improved 
efficiency in order to make water available for transfer. However, 
reductions in drainage and tail water caused by on-farm water 
conservation also reduces water inflow to the Salton Sea. Experts 
predict that such reduced inflow will cause hyper-saline conditions to 
be reached in the Salton Sea sooner than otherwise would have occurred. 
This ``temporal'' impact would affect fish and wildlife using the Sea 
for habitat, some of which are listed as threatened or endangered.
    After extensive ESA discussions between IID and both the California 
Department of Game and Fish and the U.S. Fish and Wildlife Service, no 
acceptable mitigation measures for these temporal impacts on the 
species have yet been identified.
    IID's efforts to secure ESA permits under section 10 of the ESA 
would become much easier to achieve if the water transfers relied on an 
alternative approach involving land fallowing within IID as the basis 
for obtaining the water for the proposed transfer. Analysis has shown 
that impacts to the Salton Sea and associated fish and wildlife from a 
land fallowing approach are significantly reduced or eliminated. In 
response, IID argues that land fallowing can trigger a number of 
negative outcomes and would have an adverse impact on the local economy 
from reduced agricultural production. To date, land fallowing has 
generally been found unacceptable by IID as the basis for the transfer. 
IID has indicated some willingness to implement a short-term fallowing 
program (up to 5 years) but opposes long-term programs. Short-term 
commitments do little to reduce the temporal impacts on the Salton Sea 
and its fish and wildlife resources.
    In an effort to find a solution to this problem, the Bureau of 
Reclamation has offered to undertake a voluntary initiative that could 
provide IID and the other California water agencies with an alternative 
to the section 10 process that has proved so difficult to complete. 
Under this voluntary approach, Reclamation, in cooperation with some--
or all--of the four California water agencies involved with the water 
transfers would propose a number of conservation measures under section 
7(a)(1) of the ESA. In this context, and within the section 7 
consultation process, it is hoped that a conservation plan to address 
all currently listed species in and around the Salton Sea could be 
developed. This conservation plan could potentially provide the basis 
for appropriate ESA permits for the non-federal actions of the 
California water agencies associated with implementing the transfer. 
Under this approach the conservation plan would address the impacts of 
the non-federal actions on the four species listed as endangered under 
the Federal ESA (southwestern willow flycatcher, desert pupfish, 
razorback sucker and the California brown pelican). By narrowing the 
scope of this approach to the four currently listed species it is hoped 
that an appropriate and acceptable conservation plan can be developed. 
Formal consultation for this voluntary approach under Section 7 was 
initiated on July 23, 2002. If appropriate agreements to undertake 
components of the conservation plan can be developed with the 
California agencies, it is anticipated that the consultation can be 
completed in the time provided under ESA regulations (i.e., within 135 
days).
    While we believe that this section 7-based voluntary approach will 
provide a basis for the California agencies to proceed with execution 
of the water transfer agreements and the Quantification Settlement 
Agreement (QSA) under the Federal Endangered Species Act, additional 
compliance activities are likely to be required by the California 
agencies to achieve compliance with applicable provisions of California 
state law, particularly the California ESA. Discussions are ongoing 
with the California Department of Fish and Game to see if a more 
limited species list might also facilitate State ESA compliance.
    The Section 7 process will not provide the assurances that the 
Section 10 process does. However, it will hopefully allow the deadlines 
for execution of the California Plan agreements to be met, and it will 
offer options for the California parties to consider in moving ahead 
with the transfer. IID will have the flexibility to implement on-farm 
conservation or utilize fallowing programs, short- or long-term.
Relationship with Salton Sea Restoration
    Finally, there is some confusion regarding the responsibility of 
the California 4.4 Plan water transfers for impacts to the Salton Sea. 
The transfers are not responsible for the decline of the Salton Sea. 
Any impacts to the Sea, as discussed above, are anticipated to be 
temporal in nature. The Sea is deteriorating with or without the 
transfers and its restoration is being addressed separately as 
authorized by Congress in the Salton Sea Restoration Act of 1998.
    Congress recognized the impact of reduced inflow and directed that 
those effects be considered in developing alternatives for its 
consideration. Congress'' recognition of the reduced inflows validates 
the importance of the transfers and the need for implementation with or 
without a restoration plan at this time.
    The California Plan water transfers may, however, have impacts on 
endangered species and will need to be mitigated for. Mitigation 
measures may involve activities in and around the Salton Sea to enhance 
and protect the species, but that does not necessarily translate to an 
overall restoration of the Sea or responsibility for restoration. 
Mitigation for impacts to species may also occur off-site and could 
result in minimal involvement of the transfers in and around the Sea. 
We are hopeful that the Section 7 process will allow completion of the 
QSA by year's end with or without the legislative options included in 
H.R. 5123.
Salton Sea Restoration Activities
    Salton Sea Restoration studies are currently under way and will 
identify a variety of alternatives for stabilizing salinity at the sea. 
As directed in the Salton Sea Restoration Act of 1998, each alternative 
will consider declining inflows over time. The Congress anticipated 
that a variety of activities, including water conservation and 
transfer, might affect inflows to the Sea and asked that such changing 
conditions be considered in developing options.
    In January of 2000, pursuant to the requirements of the Salton Sea 
Reclamation Act of 1998, the Department released a combined Draft 
Environmental Impact Statement/Draft Environmental Impact Report and an 
Alternatives Appraisal Report. These documents described various short- 
and long-term restoration features which included such options as on-
land and in-sea Enhanced Evaporation Systems, large in-sea evaporation 
ponds, large water export options to the Pacific Ocean or the Gulf of 
California, and import options using Colorado River flood flows and/or 
brine waste water flows from the proposed Central Arizona Salinity 
Interceptor.
    Subsequent to releasing these documents, over 1,500 comments were 
received from concerned governmental agencies, environmental 
organizations, and individuals. Although the Department believes that 
requirements of the Salton Sea Reclamation Act have been met, it agreed 
to reevaluate additional restoration concepts and continue efforts to 
prepare a revised alternatives report.
    Since the decision to reevaluate was made, numerous scientific and 
engineering technical workshops have been conducted. In addition, 
numerous physical and/or chemical engineering and scientific research 
study initiatives have been implemented. Examples of these research 
efforts include a 12-acre solar evaporation pond project, a physical 
and chemical salt research facility, a 700-hour Enhanced Evaporation 
System test effort, a North shore wetland research projectCa 
cooperative effort with the Torres Martinez Desert Cahuilla Indian 
Tribe, and a Vertical Tube Evaporation, or VTE, pilot study using 
geothermal energy, in cooperation with California Energy (who owns the 
geothermal facilities). Furthermore, recently proposed efforts through 
the Lawrence Livermore National Laboratory may result in additional 
information being collected concerning air quality, underground water 
resources, and desalination techniques.
    Information obtained from these ongoing and proposed efforts has 
been, and will continue to be, important in providing an accurate 
description of viable restoration concepts, with realistic cost 
estimates.
    As you are very aware, proposed solutions to restoring the Sea are 
often complex and potentially controversial, given other related 
actions involving water transfers and potential reduced inflows. These 
issues increase our need to be accurate with concept descriptions, 
performance efficiencies, and cost estimates. Significant progress has 
been made in developing restoration concepts, but further analysis is 
needed before finalizing a draft Alternatives Report and releasing it 
for review. Prior to the release of the draft Alternatives Report we 
want to assure you that Reclamation will continue to work with the 
Authority and the public as we move forward on this effort.
Conclusion
    In conclusion, we are determined to work with the State of 
California and the California water agencies to facilitate completion 
of the proposed California Plan activities within the required time 
frames. Three years of record drought on the Colorado River dictate the 
need to find solutions. Other states will have little tolerance for 
failure to meet the deadlines which were proposed and agreed to by all 
seven Colorado River Basin states. We are keeping all options open for 
completing the process, including additional legislation. We must 
however, reiterate our concern that the issues are too complex, the 
consequences for California are too significant and time is too short 
to rely exclusively on a strategy that depends on passage of additional 
federal legislation. We look forward to continuing to work with this 
Subcommittee and Congress as we move forward with our work on these 
critical Colorado River issues.
                                 ______
                                 
    Mr. Calvert. Mr. Johnson, you and I have been in many 
hearings over the years, many meetings over the years, 
regarding the Salton Sea and the Colorado River and the Upper 
and Lower Basin States. It is somewhat frustrating at times, 
though, happily a QSA was entered into, but we are running out 
of time.
    We are just about to start the month of August and we have 
this issue out there that has to be determined by the end of 
this year. When we started down the path of finding a preferred 
solution to the Salton Sea a number of years ago, and a lot of 
money ago -- this Congress has appropriated a substantial 
amount of money -- to com up with a preferred solution, because 
I think everyone on this panel and everyone that has been 
involved in this issue would agree, in my memory it was ever 
contemplated that Imperial County, one of the poorest counties 
in the State of California and the Coachella Valley and others 
would take on the load of unlimited third-party impacts 
regarding the Salton Sea.
    In saying that, we had thought that we would come up with a 
preferred solution a lot sooner than that and we could be 
moving toward that at the same time moving to execute the 
Quantification Settlement Agreement and move this water 
transfer forward, which is extremely important, as you know, 
not just the future of the State of California, but to the 
future of the entire West, because of the lack of water and the 
utility of the Colorado River, as you well know.
    When do you think we are going to be able to get this 
preferred solution?
    Mr. Johnson. As you know, we have been working long and 
hard on trying to find solutions to the Salton Sea. In fact, we 
submitted a report to Congress in January of 2000. We received 
over 1500 comments on that and committed to go back and try to 
address those comments and reevaluate options for addressing 
restoration of the sea.
    We have, in conjunction with the Salton Sea Authority, 
continued to pursue a variety of options. The money that you 
have provided has been most helpful in carrying out a lot of 
research, doing some very important demonstration programs, 
helping us understand the alternatives, some of the 
alternatives and the technical aspects of some of those 
alternatives.
    We have done demonstration solar ponds. We have done some 
wetlands development. We have done research and are doing 
research in using geothermal energy to do some desalinization 
at the sea.
    We have been working hard on an alternatives report that 
would in fact display a number of alternatives as the Congress 
directed in the 1998 legislation.
    Mr. Calvert. Well, as you can understand, Mr. Johnson, the 
problem that we have today and the reason we are having this 
hearing today and the reason Mr. Hunter is attempting to find a 
solution to this problem is because we are running out of time.
    Whatever that preferred solution may be, whatever the cost 
may be, it may be something we can do, something we can't do, 
but it is difficult for this Congress to analyze any potential 
solution to the Sea if in fact we don't have something to 
analyze.
    You mentioned a number of scenarios. Granted, they were put 
forward to us, but we would like the Department of Interior to 
be more forthcoming, to come up with a solution that we can 
look at seriously because here we are today, Mr. Hunter has a 
bill up. It is like everything we do around here. Some people 
like it and some people don't. But at least he has something on 
the table.
    What we are trying to do is come up with a viable solution 
that will move this QSA forward because as you know, you were 
in the negotiations with the Upper and Lower Basin States. I 
don't know if they are very sympathetic to the problems of the 
Salton Sea or the problems of the State of California when 
December comes around, that if in fact we don't have a solution 
to this problem and if we don't move this forward, I suspect 
Humpty Dumpty is going to fall off the wall and I don't know if 
we can put him back together again, quite frankly.
    So, again, we are running out of time. I would hope that 
you could do a more detailed analysis of this bill very 
quickly. I was hoping before this hearing today and hopefully 
very soon that you could come back to us and help us come up 
with a solution to this problem.
    I am going to come back to you with some other questions in 
a moment, but my time has run out.
    So, I will move to Ms. Solis and others questions on the 
panel.
    Ms. Solis. Thank you, Mr. Chairman. I appreciate the 
opportunity to be able to ask questions. I was interested in 
hearing the statements made by Congresswoman Bono that lead me 
to believe that she is not in agreement with this proposed 
legislation.
    I have some concerns as well. You mentioned earlier, Mr. 
Johnson, that you haven't had the time to assess appropriately 
what this plan will provide. I have those questions and 
concerns as well and would ask that your Agency submit any 
information it currently has to this Committee. We need the 
recent ESA biological assessment. Those materials haven't been 
given to us and I would hope that you can make that available 
to this Committee.
    Mr. Johnson. Yes, we can.
    Ms. Solis. Some of the issues I tend to be concerned about 
deal also with job loss. We are going to be looking at trying 
to create mechanisms to address some of the issues that were 
raised. Current levels of unemployment, I understand, are very 
high in the Coachella Valley.
    What remedies are going to provide some alleviation for the 
people who are going to be affected there by job loss? That is 
one issue.
    The other is the fact that we are moving so quickly here, 
in a matter of hours we are going to be voting on this. This is 
something that doesn't necessarily happen quite often.
    Mr. Calvert. If the gentle lady would yield on that point, 
the problem we have, as you know, we are leaving, hopefully, 
tomorrow night and will be gone until September.
    At this point we need to move something forward even if to 
have it to the Full Committee when we return as we can 
hopefully come up and try to move the Department of Interior 
and others to a solution of this problem.
    If we don't executive the Quantification Settlement 
Agreement by December 31st, the agreement falls apart with all 
of the States that are involved in this agreement.
    I suspect there will be changes to this legislation. We 
will work with Ms. Bono and others that have concerns about 
this legislation. But time is of the essence. No matter what 
our positions may be on this particular bill, again, I am 
hopeful that we can move it from this Subcommittee forward.
    Enough of us will have the summer to look at this, discuss 
this is with other people, talk about changes in the 
legislation and so forth. But it is important that we keep this 
thing on track and move it forward.
    Ms. Solis. Mr. Chairman, just reclaiming my time, one of 
the issues that I think also needs to be addressed is with 
respect to the mitigation that the Federal Government will have 
to take on. We are putting a cap on this here. As we all know, 
we are faced with a short fall in our budgets here. How much 
liability can we assume if this plan moves forward and things 
don't work out?
    Those are some concerns that I have. I wish that I could 
ask for the same things on some of the issue areas that I am 
dealing with in my own district. But at this time I just don't 
see that the government can take on this kind of liability that 
are projected here, up to $2 billion. So, I have some very 
serious questions about that.
    Also, with respect to the Endangered Species Act, I do 
think we have to have some balanced approach here.
    Just given your comments, Mr. Johnson, I am not getting a 
sense that we have enough of the answers yet from your 
department as well. You can respond.
    Mr. Johnson. Well, we are embarked, I believe on a process 
that hopefully can result in getting the QSA signed at the end 
of the year.
    The Section 7 process that I talked about has a 135-day 
timeframe associated with it in consultation with the Fish and 
Wildlife Service. By initiating consultation formally this 
week, that 135 days would be completed toward the end of 
November.
    We believe if we can get to an acceptable set of 
conservation measures with the Service, that that will open the 
door for the ESA compliance to be achieved and the 
Quantification Settlement Agreement to be implemented.
    Ms. Solis. One last issue here is also my understanding 
that this bill would essentially codify the Department of 
Interior's study and directs the government to abide by its 
recommendation without even seeing the study and knowing what 
is in it.
    Also, the bill waives the normal statute of limitations for 
people to file an appeal. Instead of the usual 1 year, it is 
going to be 90 days. I would like to get your response on that.
    Mr. Johnson. That is a very complicated and controversial 
issue. As I stated earlier, the bill as a whole is still under 
review and I am unable to offer any specific responses as it 
relates to the various provisions.
    Mr. Calvert. Mr. Hunter.
    Mr. Hunter. I might, in asking my question, just address my 
colleague's concerns. The issue here is the folks from Imperial 
Valley, the farmers and the community because there are 140,000 
people who live there, have been asked to transfer some of 
their water to your and my constituents because we are going to 
be short on water now that we have to live within our means 
because the other basin States, Nevada, Arizona, et cetera, are 
forcing us to take our rightful share of water under the water 
settlement agreement, which is less that what we are using.
    We are using 5.2 million acre-feet. We are going to have to 
go down to 4.4. So, your representatives have turned to our 
people who live in Imperial Valley and saying, can we have some 
of that agriculture water.
    We think we know how you can get it. You can get it by 
doing more effective irrigation on your fields, so instead of 
running all your water across your alfalfa field and having a 
lot of wastewater at the end of the field which goes into the 
Salton Sea, you will now have a pump back system that pumps 
that water back over the fields so you won't use as much 
irrigation water. And if we help you pay for those water 
conservation measures, maybe we can have some of the water that 
you have saved.
    That is what this deal that my constituents have signed 
does. Your representatives and your water agencies have signed 
it and it will now deliver drinking water to your constituents.
    The problem is, as we are going down the line with this 
deal, the Fish and Wildlife and State Fish and Game stepped in 
and said, ``Wait a minute. If you don't send this wastewater 
that you have been running off these fields into the Salton 
Sea, the Salton Sea will go down.''
    So now my farmers and the people in my valley are being 
told, ``We said we would sue you if you didn't conserve. Now we 
are telling you that you may be sued under wildlife statutes if 
you do conserve. So, whichever way you go, you are going to be 
liable.''
    So, this is a business deal in which our people say, ``Wait 
a minute. We signed this thing saying we wouldn't have to turn 
our farms back to desert because the easiest way out here is 
simply to not put any water on the crops and simply not have 
crops and let it go back to cactus for the people in my 
community.''
    They have a contract that all parties have signed that say 
this water conservation will be done with on-farm conservation, 
like a water pump-back system. That is how we come up with the 
extra water to send to your constituents.
    Now, the problem is the Salton Sea was a problem that we 
were going to solve with Federal and State dollars. Mr. Johnson 
has pointed out that it is going to be a complicated and 
expensive process.
    We don't have the answers. He doesn't have the answers. I 
think the essence of his statement is that he doesn't have the 
answers. We have a few months left to make this water transfer 
work so that your constituents can have drinking water and we 
are running out of time.
    In the end, all of this resolves down, Mr. Johnson, does it 
not, to somebody writing a check or some various entities 
writing a check. If we have a billion dollar bill to sale the 
Salton Sea, the Federal Government and State government are 
going to have to write checks for $500 million a piece or 
whatever the split is.
    What has happened is the Federal Government has said,``Wait 
a minute. If we can make the water transfer write the check on 
the basis that it is related to the water transfer, every dime 
that they write we won't have to write.''
    Now, my intuition is that that is one reason there has been 
such a slow process here in getting a response from the Federal 
Government. It could be that if we put $100 million into a 
mitigation process, maybe we make a big offsite marsh for the 
pelicans and the other endangered species and it costs $100 
million or $200 million and that is paid for by the people of 
Imperial Valley and by your constituents who are water users, 
the Federal Government won't have to pay then. If we come up 
with an analysis that says it is going to cost $3 billion to 
save the Salton Sea, our $200 million marsh or $100 million 
marsh may be the total mitigation project for the sea.
    So, the question is: Who pays the bill here? What I am 
saying is what we do when we have a practical problem and that 
says, we don't know how to save the sea yet. We don't know how 
big the bill is going to be. My constituents who signed this 
contract said if this thing comes out of fallowing, and that 
means turning our land back to desert, we are not going to do 
it. And they have a right not to do it and they have also said, 
``If we get sued for billions of dollars for the little money 
we are going to make on the transfer, the contract is void. 
That is in the contract.''
    So, Mr. Johnson, isn't it true that the discovery, and you 
have gone through this many times with Mr. Calvert, the 
discovery of a new endangered species can end up with multi-
hundred million dollar exposure for whatever agency or whatever 
private party is involved in changing the habitat for that 
particular species. That is a fact of life under endangered 
species, is it not?
    Mr. Johnson. It depends on the process.
    Mr. Hunter. But let me say this: It can involve $100 
million liabilities, can it not?
    Mr. Johnson. I would not want to speculate on the amount.
    Mr. Hunter. It has involved $100 million-plus projects that 
have had to be done to save endangered species, has it not, the 
utilization of the Endangered Species Act?
    Mr. Johnson. I am not aware of specific ESA issues that 
have required that kind of investment to address. It is 
possible, but I have not personal.
    Mr. Hunter. What you are saying is that the amount of 
exposure or liability is unknown, is it not?
    Mr. Johnson. That is true. There are always unknowns.
    Mr. Hunter. So, my question to you is, if you have the 
problem that we have and that is we have to make this water 
transfer work and it is a contract and you are asking one 
contracting party to sign up for something which could give 
them unknown exposure at a future date and they have a specific 
clause that says if this exposure goes above $20 million, the 
contract is over and Ms. Solis' and Mrs. Napolitano's and all 
the rest of the California delegation's constituents stop 
getting that extra water they were getting.
    Yet, that exposure that is unknown has never been fixed or 
clarified. Does it make sense to maintain that contract and 
isn't that a dangerous thing for the State of California and 
for the water users to be involved in?
    Mr. Johnson. Under the Section 10 process, there are 
assurances that could be received.
    Mr. Hunter. For future endangered species?
    Mr. Johnson. Species that are not listed as endangered can 
have habitat conservation plans developed under an HCP. Now, we 
have not been successful, obviously, the IID process has not 
been successful in coming up with anything there.
    Mr. Hunter. So, the point is, if we want certainty so that 
we can make this deal go forward, you can't offer us certainty 
at this time, can you, in terms of how much is going to have to 
be paid?
    Mr. Johnson. Certainty is always nice, but certainty in 
dealing with these issues is never there.
    Mr. Hunter. Well, that is my point.
    Mr. Johnson. Every activity that we undertake in water 
management has a certain amount of uncertainty.
    Mr. Hunter. So, let me follow that. So, the $20 million 
exposure limit that is written into the contract for the people 
of Imperial Valley who say if we go above $20 million, we are 
not going to bankrupt ourselves to move water to the cities.
    So, the point is that there is a possibility that that $20 
million level is going to be breached, is there not?
    Mr. Johnson. There is a possibility, yes.
    Mr. Hunter. Well, for the people of California who need the 
certainty of a continuing water transfer, that doesn't bode 
well, does it, this uncertainty.
    Mr. Johnson. Well, I think we would all prefer as much 
certainty as we can get.
    Mr. Hunter. Well, that is what my bill does.
    Mr. Johnson. Every activity that we carry out related to 
water management has uncertainty associated with it as it 
relates to the Endangered Species Act.
    Mr. Hunter. But every contract for water transfer, and this 
a contract between contracting parties, doesn't manifest 
uncertainty. So, I guess my question is, what I do, as I say, 
in a common sense way, we have to have a certainty. We have to 
have some certainty.
    Once we pay this water in for the transfer, this transfer 
is going to carry a certain amount of burden and that is it and 
then we will figure out how to save the sea and we will use 
Federal and State money. You start with that first $50 million, 
but you can't come back later for a couple of hundred million 
or a billion more dollars. And so we have a certainty.
    Now, in light of how crucial this is for the people of 
California, don't you think it is good to have some certainty 
either fixed by you -- you said you could deliver a certain 
degree of certainty -- or fixed by statute.
    Mr. Johnson. Under Section 10, a certain degree of 
assurances can be obtained from the Fish and Wildlife Service 
under a Habitat Conservation Plan. I don't think that I was 
saying that we can provide through an administrative process 
under Section 7, complete certainty as it relates to future 
listings.
    Mr. Hunter. And thereby future expenses.
    Mr. Calvert. The gentleman's time has expired.
    Mr. Hunter. Thank you, Mr. Chairman.
    Mr. Calvert. Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman. I am enjoying 
listening to a lot of the dialog because I learn a little bit 
more every time.
    There are some serious questions that I have. As the 
Chairman has stated, this is a very important step for CalFed. 
Certainly I want to see the 4.4 move forward, but not to the 
point where it is going to leave the taxpayer liable if the $50 
million write-off for the water agencies does not cover the ESA 
mitigation or the ability for, whether it is restoration or 
whether it is the setting up of a new area, whatever.
    Then it goes back either to the general public or the 
California taxpayers or the Federal Government. To me that is 
one of those important issues that, while it may sound good in 
the beginning, it may not help in the end.
    The other is, was there talk at La Quinta on a discovery of 
a large grown water reservoir beneath Imperial County and how 
would that fit into the relief of the farmers?
    Mr. Johnson. We have engaged Lawrence Livermore. They have 
suggested that there may be a significant aquifer that could be 
tapped that would supply a water supply to extend the life of 
the Salton Sea.
    That is uncertain. There were some studies a number of 
years ago that said that there is a possibility. One of the 
things that we are going to have Lawrence Livermore do is 
develop some more data on that.
    We just don't know if that resource is in fact there, but 
we are willing to take some additional looks at that and see if 
there is something there that would be helpful.
    Mrs. Napolitano. Well, Mr. Johnson, given the fact that we 
are facing some very tight timeframes in California for the 4.4 
Plan, how quickly can you get some information or how much can 
we try to expedite finding information and reporting it to this 
body so that we are then able to move and have some assurances 
of whether or not there is going to be adequate water available 
for California in the year 2016?
    Mr. Johnson. I don't know how long it would take to verify 
that issue associated with ground water. I would feel fairly 
comfortable saying that we will not have that kind of data 
before the end of the year.
    Mrs. Napolitano. In other words, it could be that there may 
be this data that does verify that there is adequate water. 
Wouldn't that be a solution, so to speak, to this particular 
bill?
    Mr. Johnson. It would help. It would also help as it 
relates to the long-term restoration studies that we have 
ongoing with the Salton Sea authority.
    Mrs. Napolitano. No, that is another area. I am not sure 
how much area Mr. Hunter represents versus Mrs. Bono. For many 
years I knew the Salton Sea. I have been in California many 
years. It used to be a very thriving tourist attraction. I am 
hoping that somewhere along the line we will be able to, 
because the reports that I have read indicate that within 40 
years it is going to be dead or so saline that nothing will 
live in it. I mean there will be very minimal habitat. I think 
you alluded to that. You mentioned that there may be four 
species left.
    Mr. Johnson. That is true. The sea is deteriorating and at 
some point it will become hyper-saline. The timeframe, the 
estimate of the timeframe for when that will occur, is 
uncertain.
    When it becomes hyper-saline, you lose the fishery resource 
and that has impacts on the fish-eating birds that use the 
Salton Sea. There would still be, even under a hyper-saline 
condition, there still would be some wildlife that would exist 
around the sea. You would lose the resource for the fish-eating 
birds.
    Mrs. Napolitano. Another question, Mr. Johnson, do you have 
any idea what the estimated costs would be to both the State 
and Federal Government to restore that sea?
    Mr. Johnson. We are in the process of trying to refine our 
estimates and are hoping to, in our Draft Alternatives Report, 
be able to display some ranges of costs.
    Mrs. Napolitano. Do you have any ballpark fig?
    Mr. Johnson. I think that under all scenarios restoration 
costs are going to be quite high. I think a $1 billion was 
mentioned earlier. Certainly costs under many of the scenarios 
will be that high.
    Mrs. Napolitano. Will that ensure full restoration or would 
it still eventually be totally saline?
    Mr. Johnson. Those costs would maintain salinity at current 
levels.
    Mrs. Napolitano. Is there a precedent in law for the 
Federal Government to bear the large share of the mitigation 
costs?
    Mr. Johnson. You know, I am not familiar with all of the 
ESA mitigation activities that have occurred. Certainly we have 
had Federal projects where we did bear mitigation costs.
    Mrs. Napolitano. But of this magnitude?
    Mr. Johnson. I am not aware of any of that magnitude.
    Mrs. Napolitano. There was the Salton Sea Restoration Plan 
that the Interior Department, and I know you are with the 
Bureau of Reclamation, apparently had given to Congress and 
there was some follow-up. Have you any idea or can you comment 
on whether we might see those replied to?
    Mr. Johnson. See what again?
    Mrs. Napolitano. It was the Salton Sea Restoration Plan. It 
was by the Interior Department.
    Mr. Johnson. Yes, the January 2000 report?
    Mrs. Napolitano. Right.
    Mr. Johnson. Yes. That did display a number of alternatives 
from moving water in and out from the ocean, in-sea 
evaporation, enhanced evaporation systems that remove salinity. 
All of the alternatives that were considered in that report 
assumed the use of some water supply to maintain the input 
levels.
    In fact, we went so far as to actually consider the use of 
flood flows on the Colorado River. That was a very, very 
controversial proposal. We received a lot of comments and in 
fact decided, consistent with the requirements of the 
legislation, that we couldn't show that in our report. That is 
really what has taken us back to the drawing board and 
developing alternatives that don't rely on additional water 
supplies.
    Mrs. Napolitano. A couple of years back I remember visiting 
the area and talking to one of the entities that wanted to 
provide the Federal Government the means of being able to clean 
the water that is going back into the Salton Sea from the 
adjacent agriculture areas because they said that a lot of 
contaminants were going in and that was making it even worse.
    What has ever happened to that?
    Mr. Johnson. Well, we have done some demonstration wetlands 
programs in cooperation with the Imperial Irrigation District 
and EPA. In fact, we have put some demonstration wetlands in 
place, the Brawley Wetlands. Those wetlands were doing some 
monitoring to see how successful they are in removing nutrients 
and in fact, we think that does offer an approach to taking 
nutrients out.
    Mr. Hunter. Mr. Johnson, if the gentle lady would yield --
    Mrs. Napolitano. Certainly.
    Mr. Hunter. What she is talking about is something 
different. You are talking about the Brawley Wetlands that 
Desert Wildlife is doing where they use Bullrushes to pull back 
stuff out of the water in New River.
    This was U.S. Filter.
    Mrs. Napolitano. That is right.
    Mr. Hunter. It has this plan and they have a lot of 
technology that you can basically filter New River water that 
goes into the sea, filter the salt out of there, the bad stuff 
out for about $250 and acre-foot, with their osmosis process. 
They are getting a little more efficient all the time, but it 
is still fairly expensive.
    Mrs. Napolitano. Thank you. Reclaiming my time, Mr. Hunter, 
yes, that is precisely what I was talking about.
    Mr. Calvert. If the gentle lady could wrap this one up, we 
will move to Mr. Osborne.
    Mrs. Napolitano. Thank you very much, Mr. Chairman. I will 
wait for the next round.
    Mr. Calvert. Thank you. Mr. Osborne.
    Mr. Osborne. Thank you. I don't have great knowledge of 
this issue, but my understanding is that roughly 300,000 acre-
feet of water are being diverted to San Diego primarily through 
increased agriculture efficiency.
    What my question is, exactly how many acre-feet of water 
going into the Salton Sea do you people feel is necessary to at 
least maintain the status quo?
    Mr. Johnson. There is no amount of water. I mean the sea is 
a terminal body of water and even with the current inflow, even 
with no reduction from the water transfers, the deterioration 
of the sea will occur.
    So, that alone cannot solve the deterioration problems 
associated with the sea. It does make it easier when there is 
additional inflows, and less expensive to develop alternatives 
that remove salt. But that by itself will not allow the 
salinity levels to be maintained.
    Mr. Osborne. It seems to me that your answers are rather 
vague. I understand you need to be cautious, but when Mr. 
Hunter asked earlier if there were any cases where the 
Endangered Species Act had had any significant impact in terms 
of dollars and cents, I think everyone here knows about the 
Klamath Basin situation which was about $150 million in 1 year. 
That was the Endangered Species Act.
    The problem that people have across the country is to 
understand what they have to do. I can understand the growing 
frustration here that at some point somebody has to make a 
decision and they can't just keep sitting there and studying 
the issue because time moves on.
    You can have farmers wiped out. You can have communities 
severely strapped and handicapped. You may not ever have 
certainty. You may not have a perfect world. But at some point 
you have to say, well, this is the best guess we can make and 
let's move forward.
    I don't know if Mr. Hunter's plan is the whole answer, but 
at least it looks like he is trying to arrive at some solution. 
Right now I don't hear anybody else that even has a plan. That 
is my concern, the lack of assertiveness or aggressiveness on 
the part of Federal agencies to make the world work.
    Mr. Johnson. I am not expressing opposition to Congressman 
Hunter's plan. We are just not able to offer detailed comments, 
but we are open to legislation that will solve this problem. I 
hope I didn't misstate that. I need to also emphasize, we are 
working as hard as we can to find solutions for the QSA as well 
as solutions for the Salton Sea.
    They are separate issues. We believe they have to be dealt 
with separately. We do have an administrative process in place, 
the Section 7 consultation process, that we are hopeful can get 
us there in terms of ESA compliance by the end of this year. I 
guess I need to reemphasize that we are not opposing the 
legislation.
    Mr. Calvert. I thank the gentleman.
    Mrs. Bono.
    Mrs. Bono. Thank you, Mr. Chairman. First, I just want to 
say it is freezing in here. My teeth are chattering.
    Mr. Calvert. You are skinnier than most of us.
    Mrs. Bono. I just know that we are not in California any 
more and we can actually afford the air conditioning here.
    I want to thank Mr. Johnson for being here. We have pretty 
much done this thing before, time and time again. I feel like 
we are chasing our tails round and round.
    I was wondering if you could comment on this letter that we 
have, and I believe it has been submitted for the record. If 
not, I would like to ask unanimous consent to submit it for the 
record, a letter from the Coachella Valley Association of 
governments.
    Mr. Calvert. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0968.001
    




    Mrs. Bono. Thank you. This is a group that is formed of ten 
municipalities, the County of Riverside and three local tribes. 
They have a letter here that opposes the Hunter legislation. It 
was a unanimous vote.
    In their letter, they have two comments I would like you to 
comment on. The first is, they write: ``We understand the need 
to meet the California 4.4 Plan for Colorado River water use, 
however, we believe that the IID water transfer may not be an 
inherently crucial component to meet the 4.4 million acre-feet 
California allotment and it could be separated from the other 
components of the QSA, thus providing the necessary time to 
allow more careful analysis of its impacts.''
    Could you please comment on that?
    Mr. Johnson. I think the water transfer is an irreplaceable 
piece of the California 4.4 plan. There is no other entity with 
large enough quantities of water to be able to accommodate the 
reductions that are required in this 300,000 acre-feet is 
absolutely a critical piece.
    Mrs. Bono. You disagree with their statement that it could 
be separated.
    The second comment of theirs: ``We find it odd and an 
example of flagrant 'special interest legislation' that at a 
time when California is being required to cut its historic 
Colorado River water use, H.R. 5123 proposes to significantly 
facilitate allocating Class 3 Priority Rights to an agency 
which has no present rights to the Colorado River water.''
    Can you comment on that?
    Mr. Johnson. Well, I think that is part of the program 
here, to find how to move water to the urban area. Imperial 
Irrigation's water right is a third priority under the seven 
party agreement. Yes, that water supply does get moved to the 
urban area. San Diego certainly has used Colorado River water 
for a long time as part of the metropolitan service area. They 
receive their water through their agreements with MET. So, to 
say they have not had rights to Colorado River water is 
probably not completely accurate.
    Mrs. Bono. During your testimony you said the sea is 
deteriorating anyway. Would you agree, though, with the 
scientific feeling that over the past 1200 years that the 
Salton Sea has move often than not been actually filled with 
water?
    Mr. Johnson. There has been over long periods of time, 
absolutely. It is true that the Colorado River --
    Mrs. Bono. You can answer just yes.
    Mr. Johnson. Yes, fine. Yes.
    Mrs. Bono. You would agree?
    Mr. Johnson. Yes, I would agree.
    Mrs. Bono. It has been more often than not filled with 
water?
    Mr. Johnson. Yes.
    Mrs. Bono. Would you agree that last year we passed 
legislation that would grant the local water agencies permanent 
flowage easement into the Salton Sea?
    Mr. Johnson. Associated with the Torres-Martinez Settlement 
Act.
    Mrs. Bono. Yes, the Torres-Martinez Settlement Act. We gave 
them the permanent right to continue to flood the Salton Sea. 
Yet, you are saying it is deteriorating anyway. Is that a 
little bit of juxtaposition there? Are you contradicting 
yourself? I believe you are. You can say yes.
    Mr. Johnson. Well, I don't think I am. I think that 
irregardless of where those flows come to, certainly the 
districts have flowage easements with the Torres-Martinez, 
whether they had that or not, the sea is deteriorating 
gradually over time.
    It is just a natural occurrence on a terminal body of 
water. Salt flows in. Evaporation occurs. Salinity increases.
    Mrs. Bono. But, Mr. Johnson, you yourselves, I believe the 
Bureau of Rec and two administrations have sent mixed messages 
to the people of southern California and to my colleagues on 
the other side, too. I say, this is a resource that all of 
southern California can benefit from.
    But you are saying in one breath the Salton Sea is going to 
die anyway. But then you are saying, but we are looking for 
solutions.
    In my view, the truth is you think it is going to die and 
you are just reluctant to come out and say that. You can't have 
it both ways. Somebody has to say one or the other and you say 
them both. It is very frustrating.
    Mr. Johnson. Let me qualify when I say the Salton Sea is 
going to die anyway. I say that in the context of the water 
transfer to make the point that the transfer shouldn't be held 
responsible for the deterioration of the sea because it is 
occurring anyway.
    Mrs. Bono. But would you make the point that in Owens 
Valley the water transfer entirely created a dust problem?
    Mr. Johnson. In the Owens Valley, yes.
    Mrs. Bono. Would you make the point that careful public 
policy would have considered that at the point and addressed 
that situation proactively rather than 100 years later?
    Mr. Johnson. Certainly.
    Mrs. Bono. Then I would like to say that the Chairman 
mentioned that Duncan Hunter at least has something on the 
table, but to me we are not thinking this through clearly 
enough. We are slapping this out there and trying to get it 
through and we really need people to come to the table.
    I have to applaud Senator Feinstein for getting everybody 
to the table to address all of the possible consequences of the 
sea.
    If I might, and I hope I am not breaking protocol, I would 
like to ask a question of my colleague, Duncan Hunter. I know 
he is not one to shy away from the microphone.
    Mr. Hunter. I am ready.
    Mrs. Bono. Wouldn't you agree, though you talk constantly, 
and I care, too, about the economic health of the Imperial 
Valley, but won't they also suffer if they have a deterioration 
of air quality?
    Mr. Hunter. Yes, and that is why the provision that I put 
in which is one of the most extensive provisions in our bill 
that provides for and mandates that you are going to have 
groundcover planted on that exposed shoreline.
    I think we can make lemonade out of a lemon here by using 
that ground cover, extending the present wildlife refugees 
along the sea and making that groundcover and those marshes and 
that upland planting part of those existing refugees and make 
it part of the recreation area.
    I very strongly support saving the sea. I think we can do 
it. My only point is, and I think Mr. Johnson made this point, 
nobody has an answer and yet for all of our people who need to 
drink water, we have to have this thing done. In the end, this 
is going to be a matter of who writes checks. Nobody is going 
to be down there with a bulldozer doing a project. We are going 
to write checks.
    Mrs. Bono. Could I reclaim my time here?
    Mr. Hunter. Only if I can put you down as undecided on my 
bill.
    Mrs. Bono. Actually, I am happy to continue to work with 
you if we can address the air quality concerns and how in fact 
we will address them now rather than later. I am happy to 
continue to work with you on it. But I think we are being very 
shortsighted if we don't do that.
    Mr. Hunter. I would be happy to let you write that section.
    Ms. Solis. Would the gentlewoman yield for a moment?
    Mrs. Bono. Yes.
    Ms. Solis. Thank you. On Page 14 of the bill, under Section 
C, ``Any mitigation measures the Secretary considers necessary 
for the protection of fish and wildlife resources,'' couldn't 
there be an addition there where we could look at potential air 
quality and health effects there which you are bringing up?
    Mrs. Bono. The gentle lady brings up an excellent point. 
That is my hope. I believe that specifying that we are planning 
marshes is far too narrow and that we need to address in a much 
bigger way than we are, so I think she brings an excellent 
point.
    Ms. Solis. Absolutely. I would just agree that while we 
know we have an urgency to get water down south, there is also 
the necessity of looking at the quality of life for individuals 
that still have to live there.
    Mr. Calvert. The gentle lady's time has expired.
    Mrs. Bono. thank you, Mr. Chairman.
    Mr. Calvert. We are going to have a vote shortly, so I am 
going to move this is on. One last comment, then I will excuse 
this panel and invite our next panel.
    I would certainly compliment Senator Feinstein for the work 
that she has done regarding this issue. However, I would just 
like to point out to the gentle lady from Palm Springs that we 
have had a number of hearings on the Colorado River and the 
Salton Sea and unlike the Senate which has had none.
    So, we have been working on this for some time. I thank the 
gentlemen. We will ask our next panel to come forward.
    Mr. John Carter, General Counsel, Imperial Irrigation 
District; Mr. Tom Kirk, Executive Director, Salton Sea 
Authority; Mr. Dennis Underwood, Vice President for Colorado 
River Matters, Metropolitan Water District of Southern 
California; Mr. Tom Levy, General Manager and Chief Engineer of 
the Coachella Valley Water District; and Bill Snape, Vice 
President for Law and Litigation, Defenders of Wildlife.
    We are going to stick to the 5-minute rule for now on 
because we are running out of time here. I will first recognize 
Mr. Carter, the general counsel for the Imperial Irrigation 
District.

STATEMENT OF JOHN CARTER, GENERAL COUNSEL, IMPERIAL IRRIGATION 
                           DISTRICT;

    Mr. Carter. Mr. Chairman and members of the Committee, 
thank you for the opportunity to provide testimony at this 
important hearing on H.R. 5123. I have submitted written 
testimony and as that it be included in the record.
    Mr. Calvert. Without objection.
    Mr. Carter. The Imperial Irrigation District supports H.R. 
5123 because it would ensure timely implementation of the 
quantification settlement agreement and provide the resources 
and certainty necessary to address environmental concerns 
associated with the Salton Sea.
    IID commends Representative Hunter for his tireless efforts 
on behalf of IID and the people of the Imperial Valley. We look 
forward to working with him and the Subcommittee to make any 
refinements that might be necessary to.
    I would like to briefly summarize my written testimony. 
First, I want to make it very clear that IID remains committed 
to the historic IID San Diego County Water Authority, Water 
Conservation and Transfer agreement, the Quantification 
Settlement Agreement and the California 4.4 plan.
    As you heard earlier, very eloquently in my opinion, from 
Congress Hunter, 11 months of almost daily negotiations with 
the State and Federal wildlife agencies over the Salton Sea 
endangered species issue has not resulted in a permit able 
mitigation plan.
    In addition to the over $10 million that IID alone has 
spent in process costs dealing with these transfer issues, IID 
has spent an additional $1 million just for these negotiations. 
This impasse seriously jeopardizes the water transfer and the 
special surplus water that could be available to urban southern 
California for the next 15 years.
    Failure to implement the transfers by the end of this year 
will likely result in a water crisis in California that would 
pale in comparison to last year's power crisis.
    In passing the 1998 Salton Sea Reclamation Act, Congress 
encouraged efficiency-based water transfers and required the 
government to assume reduced inflows resulting from those 
measures.
    Efficiency conservation funded by our urban partners No. 1 
allows the Imperial Valley farmers to grow the same crops while 
using less water. It enhances the Imperial Valley economy by 
providing new jobs in an area that has the highest unemployment 
in the State and it increases local income.
    It also complies with State and Federal goals to conserve 
water whenever possible. As a result of the Salton Sea problem 
that has been discussed earlier today and in past hearings, 
many have suggested that IID farmers merely fallow their 
productive farmland to make water available for transfer and to 
provide for additional water to the Salton Sea.
    If that was done, as much as 75,000 acres of productive 
farmland would be taken out of production, covering over 110 
square miles in Imperial Valley. IID would lose the benefit of 
increased jobs and increased economic stimulus. In fact, a 
fallowing program would result in a loss of thousands of jobs 
and hundreds of millions of dollars of lost income.
    H.R. 5123 promotes efficiency-based conservation thereby 
respecting the terms of the water transfer agreements. It is 
consistent with Federal goals encouraging water conservation. 
It recognizes that the 1998 Act intended that the water 
transfer should not bear the cost of restoring the Salton Sea.
    Finally, it ensures timely implementation of the water 
transfers and the other benefits included in the QSA.
    In conclusion, IID stands ready to honor its agreements and 
to go forward with the conservation and transfer programs and 
its agreement to cap its entitlement as soon as the Salton Sea 
issue can be resolved.
    Thank you, Mr. Chairman.
    Mr. Calvert. I thank the gentleman.
    [The prepared statement of Mr. Carter follows:]

   Statement of John P. Carter, General Counsel, Imperial Irrigation 
                                District

IID S SUPPORT OF HR 5123
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to provide testimony at this important hearing on HR 5123. 
The Imperial Irrigation District (IID) supports HR 5123 because it 
would ensure timely implementation of the Quantification Settlement 
Agreement and provide the resources and certainty necessary to address 
environmental concerns associated with the Salton Sea. IID commends 
Representative Hunter for his tireless efforts on behalf of the people 
of the Imperial Valley, and we look forward to working with him and the 
Subcommittee to refine HR 5123.
    As you are aware, HR 5123 is an important part of the effort to 
implement the California Colorado River Water Use Plan. In attempting 
to implement the California Plan the state is facing some very serious 
water management questions. IID has been working closely with the 
Department of the Interior and the State of California so as to bring 
success to that effort. But, as will be explained below, a number of 
factors have made this an exceedingly difficult challenge. The points 
we wish to make in this testimony are summarized as follows:
    <bullet> IID committed to the QSA water transfers on the basis of 
carrying out efficiency conservation within the district. IID remains 
committed to that efficiency conservation approach.
    <bullet> Efficiency conservation is good for the Imperial Valley 
economy and complies with state and federal goals to conserve water 
whenever possible.
    <bullet> A Salton Sea reclamation plan was to have been proposed 
and implemented prior to the implementation of the QSA water transfers. 
Failure to follow that approach now places the burden of Salton Sea 
endangered species problems on the back of the QSA water transfers.
    <bullet> In passing the 1998 Salton Sea Reclamation Act Congress 
encouraged efficiency-based water transfers and required the government 
to assume reduced inflows in developing reclamation alternatives.
    <bullet> Forcing IID to adopt a long-term fallowing program so as 
to transfer water to the urban area and maintain baseline inflows to 
the Salton Sea places an inappropriate burden on the people of the 
Imperial Valley and is therefore unacceptable.
    <bullet> All interested parties must now explore all viable 
alternatives for securing timely implementation of the QSA, including 
enactment of HR 5123.
    Let me first make reference to testimony provided by IID before the 
California State Water Resources Control Board on November 14, 2001. 
That testimony (copy attached) provides helpful background information 
as to IID's water entitlement and IID's history of involvement in 
attempting to help its urban neighbors with their long-term water 
supply needs. In order to save time I will not restate that background 
information here.

IID S COMMITMENTS
    Instead, and with that background in mind, it is important to begin 
with an understanding that IID has committed to a set of water transfer 
agreements and that IID remains committed to those agreements. In 1998 
IID entered into an agreement with the San Diego County Water Authority 
(SDCWA) for the conservation and transfer of up to 200,000 acre-feet 
(af) of conserved water, with an option for another 100,000 af at IID's 
discretion. The IID-San Diego agreement was expressly based on the 
concept of efficiency conservation within IID. In other words, the 
basis of the agreement was that IID would use less water to farm the 
same amount of land--thus providing the urban area with a critical 
water supply while preserving and enhancing the agricultural economy of 
the Imperial Valley. The water conserved on-farm and within IID's 
delivery system would be transferred to the SDCWA, and the SDCWA would 
pay IID for the use of that water for a period of years. <SUP>1</SUP> 
Also, within the terms of the IID-San Diego agreement IID made the 
commitment to devote $32.4 million (2002 dollars) to mitigated present 
and future transfer-related environmental impacts at the Salton Sea and 
in the Imperial Valley.
---------------------------------------------------------------------------
    \1\ Efficiency water conservation within IID, either on-farm or 
delivery system, will result in less runoff to the Salton Sea. The Sea 
is maintained by agricultural and municipal return flow from the 
Imperial, Coachella, and Mexicali valleys. By far, IID's agricultural 
return flow is the most significant component of inflow into the Salton 
Sea. Any efficiency conservation within IID will result in a one-for-
one impact on inflows to the Sea. In other words, each acre foot of 
water conserved within IID means one acre foot less flowing to the 
Salton Sea.
---------------------------------------------------------------------------
    Importantly, the IID-San Diego agreement was based on the notion 
that land fallowing would not be employed as a conservation method. In 
fact, the agreement expressly provided that in IID's water conservation 
agreements with the farmers land fallowing would be prohibited. In 
addition to avoiding fallowing there were numerous other benefits of 
the IID-San Diego agreement. For example, the infusion of money into 
the Imperial Valley economy would stimulate business activity and 
create jobs in the county with the highest unemployment in the State of 
California. Also, the implementation of water conservation measures, 
both on-farm and delivery system, would increase IID's water use 
efficiency ratings. Although IID's water use efficiencies are very 
high, especially in comparison to other districts in this southwest 
region, others have claimed that IID does not use all of its water 
entitlement reasonably. Implementation of on-farm and delivery system 
improvements would resolve that issue.
    The IID-San Diego agreement was truly a ``win-win'' arrangement. 
The southern California urban area was to obtain a much needed senior 
priority water supply for a period of up to 75 years, and IID and its 
farmers were to obtain the money necessary to implement more expensive 
water conservation measures, while at the same time enhancing the 
Imperial Valley economy. IID was committed to this arrangement in 1998 
and it remains committed to this arrangement today. <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ In regard to price IID provided to the SDCWA pro-forma 
projections of the costs of the water conservation measures likely to 
be employed by IID and the Imperial Valley farmers. The SDCWA verified 
those cost projections and the cost per acre foot for the conserved 
water was thereafter agreed to. That cost is around $250 per acre foot 
in the early years of the transfer agreement.
---------------------------------------------------------------------------

DEVELOPMENT OF QSA
    What happened after 1998 is all part of the exceedingly complex 
history of events that has been on the one hand interesting but on the 
other hand very frustrating from IID's perspective. Because of the long 
history of tension between IID, the Metropolitan Water District (MWD), 
and the Coachella Valley Water District (CVWD), it became clear that 
the IID-San Diego agreement could not be brought to fruition absent 
litigation or a broader settlement of differences among the four water-
using agencies. As a result, and with the help of Secretary Babbitt, 
Deputy Secretary David Hayes, and California Department of Water 
Resources Director Tom Hannigan, the four agencies worked out an 
historic settlement agreement entitled the Quantification Settlement 
Agreement (QSA).
    In October of 1999, IID, MWD, and CVWD agreed to Key Terms that 
would be the foundation for the QSA. The QSA obviously could not be 
executed in the absence of both state and federal environmental 
compliance, but the parties expressed their commitment to implement the 
QSA as a foundation of the development of the California Colorado Water 
Use Plan that envisioned the reduction of California's Colorado River 
use down to 4.4 maf per year.
    A cornerstone of the QSA is the agreement of the parties to 
quantify, for a period of years, the entitlements of IID and CVWD. That 
quantification goes hand-in-glove with the proposed water transfers by 
allowing authorities and interested parties to more easily verify and 
account for the water savings to be carried out as a part of the QSA. 
Another cornerstone of the QSA was resolution of some long-standing 
disputes between IID and CVWD. The QSA provides for the transfer from 
IID to CVWD, during the period of the QSA, a total of 100,000 af of 
conserved water. That agreement resulted in a decrease in the potential 
amount to be transferred to the SDCWA (down to a maximum of 200,000 
af). Along with the lining of the All American Canal and other 
miscellaneous transactions, the QSA provides for a total of about 
500,000 af of conserved water to be transferred from the agricultural 
sector (IID) to the MWD and CVWD service areas.

INTERIM SURPLUS GUIDELINES
    One important consequence of the QSA Key Terms was the public 
demonstration that California was serious about addressing its overuse 
of Colorado River water. As a result, and with the cooperation and 
approval of all seven of the basin states, Secretary Babbitt adopted 
special operating guidelines for the operation of Lake Mead (January 
2001 Interim Surplus Guidelines--ISG). The ISG provide for the release, 
over a fifteen year ``California water diet'' period, of special 
surplus water from Lake Mead primarily for the benefit of the southern 
California and southern Nevada urban areas. In other words, the 
availability of this special surplus water is what will allow 
California the time within which to implement the QSA, transfer 
conserved water from the agricultural area to the urban area, and move 
toward an overall water use of 4.4 maf, which is California's basic 
Colorado River water entitlement. <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ The ISG expressly do not guarantee the delivery of this water 
during the 15 year transition period. Instead, the guidelines are tied 
to reservoir elevations and the overall hydrology of the system. In 
other words, if Lake Mead stays relatively full, the special surplus 
water will be provided to MWD. However, if the reservoir goes below 
certain elevation levels the special surplus water is reduced in a 
step-down fashion. Because of the prolonged drought in the Colorado 
River basin it is possible that the self-executing provisions of the 
ISG will cut off most of the special surplus water deliveries to MWD 
regardless as to whether the QSA is executed and implemented.
---------------------------------------------------------------------------
    In the context of this broader picture of the QSA and the 
California Plan it is critical to appreciate the value of the ISG 
special surplus water that is currently being provided through MWD to 
the 17 million people within the MWD service area. The ISG do not 
impose any cost on MWD for the special surplus water. As a result, if 
carried out over the 15 year ISG period the present value of the 
special surplus water to MWD is approximately $1.8 billion. This 
significant benefit is largely a reflection of the largess of the 
Secretary and the other six basin states. <SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ Although California does not contribute any water to the 
Colorado River it has more of an entitlement to the river than any 
other state. For example, the State of Colorado, where about 70% of the 
river water originates, has a smaller entitlement than California. 
These facts tend to support a psychological perspective that is not 
always in California's favor. Thus, the terms of the ISG represent a 
huge victory for the California urban area--but that victory is tied to 
successful implementation of the QSA.
---------------------------------------------------------------------------
    In crafting the terms of the ISG the Secretary and the other six 
basin states nevertheless expressed distrust of California's commitment 
to reduce its use to 4.4 maf per year. As a consequence, the ISG 
provide that if certain transfer benchmarks are not met, and if the QSA 
is not executed by December 31, 2002, the special surplus water 
provisions in the ISG will be suspended and a more conservative method 
of operating Lake Mead will be imposed. Stated differently, if the 
California parties cannot bring about the execution of the QSA by the 
end of this year, the benefits of the ISG will be suspended and 
California will be facing some very serious water supply challenges.

CONSTRAINTS ON THE TRANSFERS--THE SALTON SEA
    With all of this background in mind, maybe one would be inclined to 
say: ``ok, so let's move water from the agricultural sector to the 
urban sector--what's so difficult about that?'' The answer is the 
Salton Sea. Although IID is very familiar with the Salton Sea, others 
in California and around the nation are much less familiar. As a 
result, it simply was not appreciated by many interested parties, at 
the time of the IID-San Diego agreement or at the time of the 
development of the QSA Key Terms, that the Salton Sea would present 
such a huge point of difficulty for these water transfers. This has 
become particularly clear during the proceedings before the California 
State Water Resources Control Board (SWRCB) where the QSA transfers 
have been submitted for approval.
    As you are aware, in 1998 Congress addressed the possible 
reclamation of the Salton Sea by directing the completion of certain 
studies and reports as a function of the Salton Sea Reclamation Act of 
1998 (P.L. 105-372). Although there are many points of motivation 
behind the 1998 Act, one key point is that the Salton Sea has become an 
important component of the Pacific Flyway. As explained in the SWRCB 
proceedings, because urban southern California has eliminated most of 
its original wetlands and waterways the Salton Sea has become important 
substitute habitat. During much of the year many species of birds 
depend on the habitat of the Sea as they carry out annual migrations or 
as they move from nesting places to feeding places.
    The magnifying glass of attention focused on the Sea has brought to 
light that it is less polluted than most people feared, that it is an 
exceedingly productive fishery, and that it has many characteristics 
that were misunderstood over the years on the basis of misinformation. 
However, the SWRCB proceeding also verified that the Sea is in a state 
of natural decline that is consistent with how the Sea has been filled 
by flooding events and then depleted by evaporation over eons of time. 
Since the Sea has no outlet, and no source of fresh water other than 
agricultural and municipal return flows, the salinity of the Sea will 
increase over time until the fishery is lost and the birds move on to 
other habitats. As noted before the SWRCB, some fish species will 
likely be eliminated within 13 years, and the tilapia (the most salt-
tolerant) will likely be eliminated by 2023.
    It is in the face of this declining habitat, and the lack of a 
long-term Salton Sea reclamation program, that the QSA water transfers 
intersected with the Salton Sea. Facing the need for endangered species 
permits from both the federal and state governments, and facing the 
allegation that the QSA transfers would accelerate the decline of the 
Salton Sea, the QSA parties and the state and federal agencies set 
about the process of trying to obtain Endangered Species Act (ESA) and 
California Endangered Species Act (CESA) compliance to allow the QSA 
transfers to proceed. That effort has essentially been a failure, and 
has therefore caused many parties to suggest a radically different 
approach to the QSA water transfers that would result in enormous 
socio-economic impacts on the people of the Imperial Valley.

SALTON SEA RECLAMATION ACT OF 1998
    As you are aware, in 1998 Congress addressed the possible 
reclamation of the Salton Sea by directing the completion of certain 
studies and reports as a function of the Salton Sea Reclamation Act of 
1998 (P.L. 105-372). Although there are many points of motivation 
behind the 1998 Act, one key point is that the Salton Sea has become an 
important component of the Pacific Flyway. As explained in the SWRCB 
proceedings, because urban southern California has eliminated most of 
its original wetlands and waterways the Salton Sea has become, in 
effect, southern California's mitigation bank.
    It is important to emphasize that the 1998 Salton Sea Reclamation 
Act was intended to produce the foundation for a reclamation project 
that would precede the implementation of the QSA water transfers. In 
fact, in passing the 1998 Act Congress expressly recognized the 
importance of the water transfers and expressly recognized that the QSA 
transfers would impact the Salton Sea by reducing inflows. Section 101 
(b) (3) of the 1998 Act provides as follows:
        ASSUMPTIONS.--In evaluating options, the Secretary shall apply 
        assumptions regarding water inflows into the Salton Sea Basin 
        that encourage water conservation, account for transfers of 
        water out of the Salton Sea Basin, and are based on a maximum 
        likely reduction in inflows into the Salton Sea Basin which 
        could be 800,000 acre-feet or less per year.
    It is therefore clear that the Salton Sea reclamation program was 
to have unfolded in the context of reduced inflows to the Sea. Congress 
recognized, as did IID and the other QSA parties, that the water 
transfers were of paramount importance and that any Salton Sea 
reclamation program would simply have to be developed on the basis of 
assumed reduced inflows. Indeed, it bears repeating that such an 
assumption is now a part of the federal law.

EFFICIENCY-BASED CONSERVATION vs. FALLOWING
    Nevertheless, as the state and federal wildlife agencies failed to 
approve mitigation plans for endangered species law compliance, and as 
we approached the ISG deadline of December 31, 2002, some interested 
parties began to ignore the terms of the 1998 Act and simply concluded 
that there was only one way to carry out the QSA transfers while 
maintaining inflows to the Sea--massive land fallowing within IID. This 
idea has now taken root within the environmental community, some 
members of the Salton Sea Authority, local water agencies in line to 
receive water from the transfers and ISG, and in some parts of the 
federal and state governments.
    It is not necessary to devote a great deal of time to the 
conclusion that a large long-term land fallowing program is not in the 
best interest of IID or the Imperial Valley community. But it is 
important to emphasize that a program to create 300,000 af of water for 
transfer, and the additional water needed to provide mitigation inflows 
to the Salton Sea, would require the fallowing of about 75,000 acres of 
productive farmland. This amounts to about 110 square miles of land. 
Instead of providing for an infusion of jobs and economic stimulus into 
the local economy (as with efficiency conservation), land fallowing 
would result in a significant loss of jobs and significant third party 
impacts. The economic impact on the Imperial Valley would be the loss 
of thousands of jobs and hundreds of millions of dollars of lost local 
income.
    IID also asserts that the main impact of the California Plan, and 
the need to reduce usage to 4.4 maf per year, is on junior water right 
holders within California as opposed to IID. Accordingly, one option is 
for the junior right holders to reduce their water uses in order to 
match their reliable water rights. IID suggests that if such agencies 
instead turn for help to a senior water right holder, like IID, it 
should not be on the basis of forcing reduced use (such as with 
fallowing) but should be on the basis of the creation of a new supply 
without a reduction in farming.
    Nevertheless, for a period of time IID attempted to understand this 
shift in thinking toward fallowing and even went so far as to suggest 
that if certain protective actions were taken a land fallowing program 
might be given serious consideration. However, several factors have now 
demonstrated that this is not a viable path. For example, it has become 
clear that mitigation for impacts to people is exceedingly difficult to 
understand and accomplish, and in fact the national track record for 
such efforts is very poor. Also, it became abundantly clear that the 
urban water agencies and the State of California were unwilling to 
recognize the need to develop and fund a meaningful socio-economic 
impacts program for the Imperial Valley. Along with other factors, 
these influences have convinced IID and the Imperial Valley community 
that a long-term fallowing program is not a viable option. IID is 
unwilling to put the Imperial Valley at risk to benefit others.

HR 5123 PROMOTES EFFICIENCY-BASED CONSERVATION
    This background brings us to the consideration of HR 5123. There 
are several components of HR 5123 that are consistent with IID's 
perspective regarding this whole water transfer matter. For example, HR 
5123 reflects the notion that the Salton Sea reclamation program was to 
have been developed ahead of the QSA water transfers. Had that been 
done, the intersection of the transfers with the Salton Sea would have 
resulted in a much different analysis and much less of an endangered 
species compliance burden. Following this perspective, HR 5123 
quantifies the contribution of the four water agencies and then 
provides environmental clearance for the water transfers (Section 4 (a) 
(2)). We see this as a positive recognition of the interplay between 
the 1998 Salton Sea Reclamation Act and the QSA water transfers.
    Another example is that portion of HR 5123 (Section 4 (b)) that 
provides long-term assurances to the QSA parties. IID has long been on 
record that it will not accept long-term future risks under either the 
federal ESA or the state CESA. IID is attempting to be a good neighbor 
in facilitating the transfer of about 500,000 a/f to the MWD and CVWD 
service areas, but IID will not put itself in a position of risk in 
regard to future endangered species-related problems that might arise 
in the context of the QSA water transfers. HR 5123 attempts to address 
these important concerns.
    While we will have some amendments to propose at the appropriate 
time these examples demonstrate that HR 5123 is oriented in the right 
direction and attempts to address some of IID's fundamental concerns. 
Most importantly, however, HR 5123 is aimed at supporting the 
foundational concept behind all of the QSA water transfers--efficiency 
conservation within IID. Unlike legislation currently under 
consideration in the California legislature, HR 5123 does not attempt 
to force IID and the Imperial Valley community to accept a long-term 
fallowing program. Rather, HR 5123 respects the terms of the IID-San 
Diego agreement, the provisions of the QSA Key Terms, and the 
requirements of the 1998 Salton Sea Reclamation Act.
DOI'S SECTION 7 EFFORTS
    In the face of the impasse over the solutions to the Salton Sea, 
the Department of the Interior (DOI) has announced that it will attempt 
to comply with the Endangered Species Act for the QSA water transfers 
through the use of the Section 7 consultation provisions of the ESA. 
Under this approach, DOI and the Bureau of Reclamation, along with the 
four water agencies, will be exploring the feasibility of obtaining ESA 
and CESA compliance with a focus on a much smaller number of species. 
IID appreciates the efforts of Secretary Norton and Assistant 
Secretaries Raley and Manson in attempting to find innovative ways to 
bring about implementation of the QSA water transfers on the basis of 
our original contract commitment--efficiency conservation. At the same 
time, IID is not willing to assume the risk that additional mitigation 
costs might be imposed on IID as a result of future unforeseen 
circumstances (such as the listing of new species or the need for 
reconsultations). Either the federal government and/or the urban water 
agencies need to take responsibility for such risks.
    Even though the Section 7 approach may be consistent with the 
orientation of HR 5123, we are also concerned that a Section 7 approach 
may only be a partial solution. The California Endangered Species Act 
imposes independent, and more stringent, regulatory requirements on the 
QSA water transfers. Thus, it will need to be determined if the State 
of California is willing to cooperate in facilitating the Section 7 
approach by providing parallel clearance under California law.

CONCLUSION
    In summary, let me explain that this has been a long and 
frustrating road for IID. On many occasions IID has been singled out as 
the entity that has not been cooperative enough or has otherwise made 
the process difficult. We strongly disagree with these 
characterizations and assert that such characterizations merely reflect 
the attitude that IID has not been willing to compromise its principles 
solely for the benefit of others. As noted at the outset, IID remains 
committed to the IID-San Diego agreement, remains committed to the Key 
Terms for the QSA, and remains committed to the California Plan. IID 
has devoted countless hours to this process and has spent millions of 
dollars to ensure success without one dime in transfer revenue income. 
What IID will not do is sacrifice the Imperial Valley economy for the 
benefit of others.
    IID also appreciates the difficult situation presented by the 
Salton Sea. But the issue here is really relatively simple: which is 
more important to California--the QSA water transfers and the success 
of the California Plan, or maintaining baseline inflows to the Salton 
Sea? What is clear is this--IID and the Imperial Valley community will 
not carry the burden for California to have both. IID will not approve 
a long-term land fallowing program to provide water to SDCWA, MWD and 
CVWD and at the same time maintain baseline inflows to the Salton Sea. 
<SUP>5</SUP> That is not what Congress envisioned in 1998 and that 
would be contrary to what was enacted into federal law. If California 
desires to maintain inflows to the Salton Sea then it should work with 
the urban water agencies to figure out how to conserve water in the 
urban areas and/or develop new supplies that do not rely upon IID, 
thereby maintaining the status quo as to Salton Sea inflows.
---------------------------------------------------------------------------
    \5\ It would be ludicrous to suggest that Imperial Valley farmers 
should fallow land so that their farming neighbors at CVWD can continue 
to farm or build more golf courses. That proposition is simply 
unacceptable. If water is to move from IID to CVWD, under the QSA or 
any other arrangement, such water will need to be developed via 
efficiency conservation within IID.
---------------------------------------------------------------------------
    In the end all IID can do is maintain its commitment to the win-win 
agreements it developed with its water agency partners. If the 
interested parties are also committed to those agreements then they 
will need to find a way to allow the efficiency conservation foundation 
of the QSA water transfers to be maintained. This may require 
significant political will on the part of the federal government and 
the State of California. In any event, IID stands ready to cooperate to 
implement the QSA water transfers as originally envisioned while 
continuing with the business of farming some of the most productive 
farmland in the world.
    [An attachment, ``Statement of the Imperial Irrigation District 
before the State Water Resources Control Board - November 14, 2001,'' 
has been retained in the Committee's official files.]
                                 ______
                                 
    Mr. Calvert. Mr. Kirk, you are recognized for 5 minutes.

STATEMENT OF TOM KIRK, EXECUTIVE DIRECTOR, SALTON SEA AUTHORITY

    Mr. Kirk. Thank you, Mr. Chairman. Members. I am again, Tom 
Kirk, Executive Director of the Salton Sea Authority. I do want 
to note that in our written testimony that we ask you make a 
part of the record, we do have the CVAG letter as an 
attachment.
    Both the Salton Sea Authority and CVAG are opposed to H.R. 
5123 as written.
    Mr. Calvert. Without objection.
    Mr. Kirk. H.R. 5123 does encourage, unfortunately, one of 
the most environmental damaging form of water transfer. One of 
the challenges we have is talking about conservation. Here when 
we talk about making farmers more efficient, unfortunately, we 
are talking about reducing inflows to the Salton Sea, as 
opposed to fallowing which would certainly reduce impacts on 
the Salton Sea and reduce environmental impacts, but certainly 
it has economic impacts.
    This one to one type of water conservation for every acre-
foot going to San Diego or outside of the Basin has an acre-
foot impact on the Salton Sea. What that does is, of course, 
shrinks the Salton Sea and some of the problems that we have 
been talking about.
    It would lower the elevation of the sea by 15 feet or more 
and increase salinity of the Salton Sea. So that ever-
increasing march of salinity at the Salton Sea goes up 
dramatically under a water transfer.
    The bill does provide some discussion about air quality 
impacts and we are thankful for that. However, we don't believe 
it goes far enough. It doesn't provide any funding and the type 
of mitigation proposed may not address all of the air quality 
impacts.
    Additionally, the bill would cap environmental costs. We 
believe it is doing so arbitrarily. We would prefer to see the 
Endangered Species Act left the way it is and let the 
transaction address its environmental impacts just like 
developers do in southern California and just like other 
projects do across this country.
    One positive is that it does indicate that any funding 
provided by the Act or in fact by the water districts could be 
applied to restoration, if restoration was authorized in the 
next 7 years.
    Our concern is that with reduced inflows it probably makes 
restoration next to impossible or infeasible. One of the 
questions that was asked was, well how much does restoration 
cost?
    Bob Johnson's folks and our folks and technical experts are 
working on that, but just to give you a sense, if you were to 
reduce inflows by several hundred thousand acre-feet, the cost 
of restoration would go up by over $2 billion. So, there is a 
major impact on our ability to restore this vital resource if 
inflows drop significantly.
    I don't want to take a lot of time to remind you of the 
importance of the Salton Sea. It sounds like most of you are 
somewhat familiar with the Salton Sea and some of you are 
painfully familiar with the Salton Sea.
    I do want to note that the University of Redlands has done 
an excellent job of compiling a lot of good information. You 
have probably seen an atlas at your table. I want to note that 
Dr. Tim Krantz is here. You may have questions for him as well. 
He has put together that atlas that does describe the 
importance of the Salton Sea and the resources of the Salton 
Sea. I encourage you to take a look at it.
    The other thing I will make available to you are the good 
things that we are doing at the Salton Sea thanks in many ways 
to your support.
    As Bob Johnson indicated, we have good projects underway at 
the Salton Sea. The Salton Sea can be restored and saved and it 
contribute done in a very practical way, taking salt out of the 
Salton Sea through the use of solar evaporation ponds and there 
may be even some possibility for desalinization at the Salton 
Sea.
    Like Bob Johnson, I am very interested in Lawrence 
Livermore's work on groundwater as well.
    So, the water transfer could have major environmental 
impacts, could have health impacts, could have major impacts on 
our ability to restore the Salton Sea as it is currently 
constructed and planned to be implemented.
    The strategy of providing fish ponds as offsite mitigation 
has been rejected by the wildlife agencies and as we heard at 
the State Water Resource Control Board hearings, there is 
significant concerns from the scientific community on that 
front as well.
    I think when we think about the Salton Sea as it relates to 
this water transfer, the 300,000 acre-foot reduction of inflow, 
think of a smaller sea that is much saltier and probably not 
savable, you can't restore it.
    I think about a couple of your late colleagues, Congressman 
Brown and Congressman Bono. I think about the vision they had 
for the Salton Sea. They not only wanted to protect the 
environment at the Salton Sea, they wanted to provide economic 
development opportunities and protect economic development 
opportunities.
    I believe had they seen this vision for the Salton Sea, a 
smaller sea, major exposed salt flats and an inability to 
restore the Salton Sea, they would be horrified by it. I 
believe what they wanted to see was a full Salton Sea restored 
and protected providing environmental and economic values.
    I look forward to working with this Subcommittee and others 
to improve H.R. 5123 and improve the water transfer in a way 
that protects the Salton Sea and provides us with an ability to 
fully save it.
    Thank you very much.
    [The prepared statement of Mr. Kirk follows:]

    Statement of Tom Kirk, Executive Director, Salton Sea Authority

Introduction
    Thank you for the invitation to participate in this important 
hearing. The Salton Sea Authority is pleased to offer our views on the 
legislation recently introduced by the Honorable Duncan Hunter, 
``Colorado River Quantification Settlement Facilitation Act'', HR 5123.
    I would like to thank Congressman Hunter, and all members of the 
Salton Sea Congressional Task Force for their continuing support of our 
efforts, and those of many federal agencies that are engaged in the 
effort to protect and restore the Salton Sea.
    I am the Executive Director of the Salton Sea Authority. The Salton 
Sea Authority is an agency that was established in 1993 under the State 
of California's joint powers agency statutes. The Salton Sea Authority 
was formed to direct and coordinate actions related to improvement of 
water quality, stabilization of water elevation, and enhancement of 
recreational and economic potential of the Salton Sea. Notably, the 
Authority was formed by the four agencies with direct and significant 
stakes in the region and the health of the Salton Sea: Imperial 
Irrigation District, Imperial County, Coachella Valley Water District, 
and Riverside County. State legislation passed last year will allow the 
Torres Martinez Desert Cahuilla Tribe to be a full member of the 
Authority in the near future.
    I was hired as the Authority's first and only Executive Director in 
late 1997. Since that time, I have managed and co-managed the Salton 
Sea Authority's environmental compliance, engineering, design, public 
outreach, governmental affairs, and scientific efforts.
    In 1998, Congress enacted the Salton Sea Reclamation Act of 1998 
(Public Law 105-372). The Act directed the Secretary of Interior to 
complete environmental and engineering studies to: (1) permit the 
continued use of the Salton Sea as a reservoir for irrigation drainage; 
(2) reduce and stabilize the overall salinity of the Sea; (3) stabilize 
the surface elevation of the Sea; (4) reclaim in the long term healthy 
fish and wildlife resources and their habitat; and (5) enhance the 
potential for recreational uses and economic development of the Salton 
Sea. Additionally, Congress has appropriated approximately twenty 
million dollars for restoration efforts. The State of California has 
contributed an additional five million dollars.
    Over the last 4 years, the Salton Sea Authority, in conjunction 
with the United States Bureau of Reclamation, has engaged in extensive 
environmental studies and engineering designs with respect to potential 
restoration projects. As discussed more fully below, the conclusions 
reached in those studies is that the Sea is a rich, vital ecosystem of 
regional, national and international significance that can be restored 
and maintained indefinitely at a reasonable cost, if actions are not 
taken that significantly reduce water inflows to the Sea.
    The Salton Sea Authority is not opposed to the quantification 
settlement agreement, nor necessarily, to the transfer of water from 
the Imperial Irrigation District (``IID'') to the San Diego County 
Water Authority (``SDCWA'') and the Coachella Valley Water District 
(``CVWD'') and/or the Metropolitan Water District of Southern 
California (``MWD''). The Salton Sea Authority understands the need and 
generally supports the implementation of the California 4.4 Plan that 
is designed to reduce California's use of Colorado River Water.
    However, the Salton Sea Authority is deeply concerned about the 
manner in which transfers are implemented, as some transfer options 
will have a devastating effect on the Salton Sea. Consequently, the 
Salton Sea Authority cannot support the Colorado River Quantification 
Settlement Facilitation Act in its current form, for the following 
reasons:
    <bullet> The Act facilitates water transfers implemented in a 
manner (on-farm conservation) that would substantially reduce inflows 
into the Salton Sea and render maintenance and restoration of the Sea 
infeasible. The Sea would be lost.
    <bullet> The $110 million committed by the Legislation to fund 
mitigation projects would be insufficient to fund even minimally 
effective habitat conservation programs.
    <bullet> The Act commits the Secretary of Interior to remediate 
the severe air quality impacts threatened by a receding Salton Sea, but 
provides no funding for those remediation efforts that could cost tens, 
or even hundreds, of millions of dollars.
    In addition to the concerns raised by the Salton Sea Authority, the 
Coachella Valley Association of Governments <SUP>1</SUP> (CVAG) Energy 
and Environment Committee also voted to oppose H.R. 5123. In their 
attached letter, they express concerns about weakening the Endangered 
Species Act, insufficient funding for environmental mitigation, and 
shortening time lines for legal challenge. They also acknowledge the 
importance of furthering the California 4.4 plan, but they believe that 
the SDCWA/IID water transfer may not be a crucial component of that 
plan and that the transfer could be separated from the plan. The CVAG 
letter sums its opposition by stating that:
---------------------------------------------------------------------------
    \1\ An ex-officio member of the Salton Sea Authority.
---------------------------------------------------------------------------
        ``the legislation proposes to facilitate this four to five 
        billion dollar water sale by sidestepping the environmental 
        process; making the Federal government responsible for 
        environmental impacts, and mandating a price tag for project 
        mitigation which we deem arguably low, and the majority of 
        which is being paid by the Federal tax payer.''

Restoration of the Salton Sea
    In order to understand the impact of the Facilitation Act on the 
Salton Sea, it is necessary to understand the basics of the Sea and its 
hydrology. Thanks in large part to the Salton Sea Restoration Act of 
1998; the Authority has been able to undertake significant scientific 
study of the Sea. What has emerged is a Sea of much greater diversity 
and vitality than was initially appreciated <SUP>2</SUP>.
---------------------------------------------------------------------------
    \2\ This work is memorialized in various newsletters published by 
the Authority and by the University of Redlands in a pamphlet called 
``Salton Sea, California's Everglades'' that was handed out to 
participants at the Subcommittee's field hearing on June 14. The 
pamphlet provides full-color details regarding the Salton Sea, its bio-
diversity, and restoration that support and augment the brief summary 
provided in this statement. For copies of the pamphlet, you may contact 
the University of Redlands at (909) 335-5268.
---------------------------------------------------------------------------
    The Salton Sea is California's largest inland lake. It has been 
described as the crown jewel of Californian avian biodiversity. The Sea 
offers greater species diversity than the Florida everglades. More than 
two-thirds of all species of birds (400 species) in the Continental 
United States have been recorded at the Sea. The Sea supports 45% of 
the entire U.S. population of the threatened Yuma clapper rail, 80% of 
the western American white pelicans, and 90% of the continental 
population of eared grebes. Given the loss of 95% of California's 
historic wetlands, the Sea has become a critical link in the Pacific 
flyway.
    The birds at the Salton Sea depend on the Sea's fishery, which has 
been described as one of the world's most productive. It has been 
estimated that 200 million fish inhabit the Sea.
    The Sea is also an important recreational resource. An estimated 2 
million people visit the Sea annually. Many consider it to have the 
best fishing in California. It is also considered one of the most 
popular bird watching spots on the Continent.
    The lynch pin of the Sea's bio-diversity, its fishery, is 
threatened. The Sea is a terminal inland water body; the salinity of 
the Sea is slowly rising.
    Inflows to the Sea, which are largely dependent on agricultural 
run-off, have remained essentially constant for 30 years at 1.34 
million acre-feet per year. If inflows remain at that level, the Sea 
will likely continue to support its fishery, and the rich bio-diversity 
that depend on that fishery, for another 60 years. At that time, the 
salinity will reach 60 parts per thousand, at which point it is 
generally assumed that critical fish populations will be unable to 
reproduce.
    The goal of the restoration planning effort has been to restore and 
maintain the Sea's vital ecosystem indefinitely. The restoration 
project has shown that methodologies exist to withdraw salt from the 
Sea at a sufficient rate to maintain a viable fishery if inflows close 
to historic averages are maintained.
    Solar evaporation ponds have been used for millennia to extract 
salt from water. The Salton Sea Authority, in partnership with the 
Bureau of Reclamation, has constructed a solar evaporation pond pilot 
project at the Sea and is testing salt disposal techniques at another 
pilot project at the Sea. Additionally, we recently initiated a joint 
project with CalEnergy to use some of their waste heat from their 
geothermal plants at the Sea to test a desalinization process.
    Under continuation of historic average inflows, restoration is 
clearly possible. It is estimated that a salinity control project, 
assuming current inflows and using solar ponds, would cost $250 million 
<SUP>3</SUP>, present value.
---------------------------------------------------------------------------
    \3\ Cost estimates continue to be refined and could increase some. 
However, these present value costs not only include the cost of 
construction, they also include the costs of operations and management 
over time and the costs of other ancillary programs (wildlife disease 
program, etc.).
---------------------------------------------------------------------------
The Impact of Water Transfers
    The effect of water transfers on the Salton Sea depends largely on 
the manner in which water is conserved for transfer. The project 
proposed by IID, and facilitated by this legislation, would rely on 
``on-farm conservation'': reduction or elimination of ``tail water'' 
and improvement of delivery systems in Imperial Valley. Virtually all 
of the water conserved in this manner (300,000 acre-feet per year) 
would be water that would otherwise flow to the Sea.
    The reduction of inflows of 300,000 acre-feet per year would cause 
the level of the Sea to drop around 15 feet and the Sea to 
significantly shrink. Salinity in the Sea would rise rapidly, reaching 
the benchmark of 60 parts per threshold in 2013. Sometime around that 
point, it is expected that the fishery would collapse.
    A restoration project designed to accommodate reductions of inflow 
of that magnitude would be so large that it would be infeasible to 
build and would cost well over $2 billion. The $110 million committed 
by the Facilitation Act falls far short of the additional amount needed 
for restoration due to reduced inflows. Consequently, under on-farm 
conservation, restoration of the Sea becomes infeasible.
    As an alternative to restoring the Sea, IID initially proposed a 
Habitat Conservation Plan that relies on the construction of large 
(5,000 acre) fish ponds (likely the ``Habitat Enhancement Projects'' 
envisioned by the Act). It was hoped that the ponds would provide 
replacement food for the fish-eating birds and mitigate the impacts of 
the dying Sea.
    During hearings before the California State Water Resources Control 
Board regarding the transfer project, the fish pond project was 
uniformly criticized by scientists who had reviewed the proposal. The 
California Department of Fish and Game and United States Fish & 
Wildlife Service concluded that the plan would not be effective in 
mitigating impacts to endangered species. IID ultimately withdrew that 
proposal.
    Even if the Habitat Conservation Plan had been effective, the cost 
would likely have been prohibitive. IID's own estimates of the cost of 
the habitat conservation project ranged from the low hundred million 
dollars to the low billion dollars.
    It is our understanding that the rejection of the Habitat 
Conservation Plan by the Fish & Wildlife Service is the motivating 
factor behind the Facilitation Act. In exchange for a $50 million 
dollar payment by the Water Districts benefited by the transfer (IID, 
CVWD, MWD and SDCWA), the Act provides that the requirements of the 
Endangered Species Act are deemed to be fully satisfied and the Water 
Districts are absolved of any further liability under federal law for 
transfer-related projects. Consequently, under the Facilitation Act, 
transfers could be accomplished without mitigating impacts to 
endangered species, or other species that rely on the Salton Sea's 
ecosystem.
    The $60 million authorized by the Facilitation Act, even when added 
to the $50 million required of the Water Districts, is hopelessly 
inadequate to mount either a minimally effective salinity control 
project or an alternative habitat conservation plan. Unless significant 
funding was forthcoming from other sources, the Sea would shrink and 
die and America would lose one of its biodiversity gems.
Air Quality Impacts
    Equally troubling, implementation of the transfers as contemplated 
by the Facilitation Act pose a serious air quality risk to the 
residents of the Coachella and Imperial Valleys that abut the Salton 
Sea. The receding Sea would expose over 70 square miles of bottom 
sediment. Very fine bottom sediments, once exposed, may become wind-
borne dust (PM10), one of the major causes of air pollution.
    In an analogous situation, the Owens Lake bottom was exposed by 
water transfers to Los Angeles in the early part of the 20th Century. 
The area exposed at Owens Lake was roughly one-third to one-half of the 
area that may be exposed at the Salton Sea. Nevertheless, dust storms 
at Owens Lake have caused severe air quality and health problems.
    Los Angeles has been forced to implement a dust stabilization 
program to remediate the air quality problems at Owens Lake. It is 
anticipated that that program will cost $400 million to implement, and 
another $10 million annually to maintain.
    Imperial and Coachella Valleys already fail to meet federal air 
quality standards for PM10. Imperial Valley currently has the highest 
incidence of childhood asthma in the State, a fact attributable to the 
poor air quality. It is feared that a receding Salton Sea could cause 
significant degradation of air quality in the area, imperiling 
residents'' health, and necessitating costly dust mitigation measures 
that would significantly hamper local economies.
    To address air quality hazards posed by water transfers, the 
Facilitation Act requires the Secretary of Interior to ``carry out 
projects under this section [Section 3] that are necessary to prevent 
threats to health or safety caused by wind erosion of portions of the 
Salton Sea bed that become exposed as a direct result of the receding 
of the Salton Sea...'' due to water transfer- related conservation 
measures. No projects are currently proposed for mitigating the 
potential air quality impacts of a receding Sea, but it is estimated 
that the cost of remediation could be significant. Notwithstanding the 
requirement of the Act that the Secretary carry out such projects, the 
Act does not authorize any federal funding for that effort.

There Is An Alterative
    The Final Environmental Impact Report certified by IID on June 28, 
2002, proposed an alternative: fallowing. Farmland could be fallowed on 
a rotating basis to provide water to meet transfer obligations and/or 
to provide replacement water to the Salton Sea. Such an alternative 
could keep salinity increases on the same trajectory that they have 
been on for the past couple of decades. This would provide an 
opportunity to implement a cost-effective restoration program.
    However, the water transfer agreement between IID and SDCWA rejects 
fallowing as a method of conservation. In policy statements, IID has 
consistently rejected the fallowing alternative as causing unacceptably 
large damage to the local economy.

Effect of the Proposed Facilitation Act on the Salton Sea
    Reclamation Act of 1998
    Section 4(a)(1) of the Facilitation Act states that the Salton Sea 
Reclamation Act of 1998 recognized that: ``the Federal Government will 
bear the responsibility for the rehabilitation of the Salton Sea...''.
    The Salton Sea Authority would welcome that level of commitment 
from the Federal Government. Nevertheless, while Congress is the 
ultimate arbiter of what the Salton Sea Reclamation Act intended, the 
Authority has never understood the Act to constitute the Federal 
Government's full assumption of responsibility for rehabilitation of 
the Sea.
    With respect to restoration planning, the Restoration Act does 
provide that the Secretary of Interior:
        ``shall apply assumptions regarding water inflows into the 
        Salton Sea basin that encourage water conservation, account for 
        transfers of water out of the Salton Sea basin, and are based 
        on a maximum likely reduction of inflows into the Salton Sea 
        which could be 800,000 acre-feet or less per year''.
    The Secretary was to develop a report with the Salton Sea Authority 
that evaluated restoration options under reduced inflow conditions. 
Such a report is still forthcoming. In a recent letter to the Secretary 
of Interior, even the Sea's greatest legislative supporters acknowledge 
that the report should evaluate multiple inflow conditions. (See 
Exhibit 9 in the Authority's testimony before the Subcommittee on June 
14, letter to Secretary Norton from Congressional Salton Sea Task 
Force).
    Evaluation of restoration alternatives under various inflow 
assumptions is an order of magnitude less committal than paying for 
restoration under those conditions. As noted above, restoration under 
significant inflow reduction becomes prohibitively expensive.

Salton Sea Authority's Position on the Colorado River - Quantification 
        Settlement Facilitation Act
    On July 18, 2002, the Salton Sea Authority unanimously voted not to 
support the Facilitation Act. The Authority found the Facilitation Act 
to be inconsistent with the Authority's previously adopted position 
with respect to restoration of the Salton Sea. The Authority's position 
is stated in its Resolution 02-02 (attached as Exhibit 3 in the 
Authority's testimony before the Subcommittee on June 14, 2002), which 
provides, in part:
        <bullet> ``NOW THEREFORE, BE IT RESOLVED, by the Board of 
        Directors of the Salton Sea Authority to oppose projects that 
        will significantly lower the level of the Salton Sea''.
    As discussed above, the proposed Facilitation Act would facilitate 
transfer projects that rely on conservation techniques that 
significantly reduce inflows to the Sea. Restoration of the Salton Sea 
would be rendered infeasible.
        <bullet> ``BE IT FURTHER RESOLVED to support efforts by 
        Congressman Mary Bono to ensure that the impacts of water 
        transfers on the Salton Sea and the Imperial and Coachella 
        Valleys are complying with environmental laws.''
    The proposed Facilitation Act in essence grants the Water Districts 
a federal waiver from compliance with federal environmental laws with 
respect to transfer-related projects. Impacts on endangered species 
would not be mitigated. Impacts on Valley residents from the threat of 
significantly degraded air quality are not adequately addressed.
        <bullet> ``BE IT FURTHER RESOLVED to urge the IID Board of 
        Directors to pursue water transfer solutions which meet the 
        terms of the QSA which properly mitigate impacts on the Salton 
        Sea, and which address economic and social impacts in the 
        Imperial and Coachella Valleys.
    The $110 million proposed by the Act for mitigating transfer-
related impacts will be inadequate to address the impacts on 
restoration and to mitigate potential environmental impacts at the Sea. 
The Bill provides no mechanism for addressing economic and social costs 
of a dying Salton Sea.
        <bullet> ``BE IT FURTHER RESOLVED that any mitigation 
        identified and implemented for the transfer be done in a manner 
        consistent with the goals and objectives for the full 
        restoration of the Salton Sea.''
    The Act facilitates water transfers that would significantly reduce 
flows to the Sea and make restoration very expensive, very large and/or 
very complicated. It would likely make full restoration impractical or 
impossible.
        <bullet> ``BE IT FURTHER RESOLVED to support stringent reviews 
        of any State and/or Federal legislation that relax 
        environmental laws at the detriment of economic or 
        environmental values of the Salton Sea, and Imperial and 
        Coachella Valleys.
    The legislation appears to be designed to facilitate water 
transfers by relaxing environmental laws. Public health and 
environmental values of the Salton Sea, Imperial and Coachella Valleys, 
are not protected.

Conclusion
    The Salton Sea is a critical environmental resource and important 
asset to the economies of the Imperial and Coachella Valleys. The 
Colorado River Quantification Settlement Facilitation Act would enable 
water transfers in a manner that would make restoration of the Sea 
extremely costly and, very likely, impractical.
    If compliance with environmental laws is waived as contemplated by 
the Facilitation Act, the water transfers can be implemented in a 
manner that will have severe public health, economic and environmental 
consequences to the region surrounding the Salton Sea. Those impacts 
can and should be avoided by pursuing conservation alternatives that do 
not reduce inflows to the Sea, do not threaten the rich biodiversity of 
the Sea's ecosystem, and do not threaten the health of residents of the 
Imperial and Coachella Valleys.
    The Salton Sea Authority has been diligently testing and 
demonstrating projects and programs to maintain and restore the Salton 
Sea. With your continued support, the Authority believes that those 
efforts can be brought to fruition, and Americans can continue to enjoy 
the outstanding ecological and recreational resources of the Salton 
Sea.
                                 ______
                                 
    Mr. Calvert. Mr. Underwood, you are recognized for 5 
minutes.

  STATEMENT OF DENNIS UNDERWOOD, VICE PRESIDENT FOR COLORADO 
    RIVER MATTERS, METROPOLITAN WATER DISTRICT OF SOUTHERN 
                           CALIFORNIA

    Mr. Underwood. Thank you, Mr. Chairman, to avoid 
repetition, we have a joint statement and I am going to defer 
to Mr. Levy to summarize that statement.
    I just would like to compliment the Chairman. Like you have 
indicated, you have held numerous hearings, field hearings, and 
hearings here in Washington. Your leadership has helped advance 
this. The same is true with Congressman Hunter and 
Congresswoman Bono. Your active involvement in his has been 
helpful to us and we need to have you stay engaged, not only on 
the Federal side, but on the State side, because if we are only 
successful on the State or only successful on the Federal side, 
we don't get there.We need to do it as a united front.
    Really, the Metropolitan Water District appreciates all of 
your efforts in this regard.
    I will defer to Mr. Levy.
    Mr. Calvert. Mr. Levy.

   STATEMENT OF THOMAS LEVY, GENERAL MANAGER-CHIEF ENGINEER, 
                COACHELLA VALLEY WATER DISTRICT

    Mr. Levy. Thank you, Mr. Chairman. I would ask that the 
statement of the four agencies be included in the record.
    Mr. Calvert. Without objection.
    Mr. Levy. I would like to echo Mr. Underwood's appreciation 
of the Committee and especially Congressman Hunter's activities 
to try to bring resolution to this very difficult issue.
    When we started the transfers, we were assured by Secretary 
Babbitt and Assistant Secretary Hayes that the agencies would 
not bear the responsibility for the Salton Sea, that the 1998 
Salton Sea Restoration Act would be the vehicle to deal with 
the sea.
    So, we are now faced with a very difficult issue. I would 
like to assure you that all four agencies are committed to 
resolve the California-Colorado River issues and to implement 
the quantification supplement agreement by the end of the year.
    I think everyone is aware, if we are not successful, 
California will lose between 700,000 and 800,000 acre-feet of 
water next year from the Colorado River. That will have major 
impacts on urban California because we are currently using that 
water through the Interim Surplus Guidelines. Those guidelines 
will result in the suspension of it.
    At a workshop yesterday, we heard from the other Basin 
States, that they are not interested in renegotiating at this 
time. So, there will be a direct impact. That impact will flow 
through California and have significant economic impacts. So, 
it is critical that we resolve this.
    The four agencies are working 24 hours a day, 7 days a 
week, trying to resolve the issues. In the statement you will 
see the list of the accomplishments that we have done so far.
    Just to give you an idea of some of the things we have done 
in the last week or 10 days, we have met with California's 
Secretary of Resource, Mary Nichols and her department heads 
and key staff trying to work on resolution of it.
    We met with Secretary Norton and her assistants to work on 
a resolution of this.
    We held a workshop yesterday in Los Angeles to go over the 
impacts of the drought that is occurring on the Colorado River 
today and the impacts of not having the QSA signed in there.
    We have had, it seems like 1,000 conference calls trying to 
address the various issues in there. So, we are working on it. 
We believe that we need additional time in order to come up 
with some of the ideas that were put forth at the meeting that 
Senator Feinstein held last month and to come up with 
activities or a program that may be workable.
    We would ask that we could work with the Committee over the 
recess to reach agreement.
    Thank you.
    Mr. Carter. Well, the gentleman has that commitment.
    [The joint statement of Mr. Levy and Mr. Underwood 
follows:]

Joint Statement of Imperial Irrigation District, Coachella Valley Water 
 District, The Metropolitan Water District of Southern California, and 
                    San Diego County Water Authority

    This joint statement is presented by the representatives of the 
four Southern California water agencies that together use the large 
majority of Colorado River water delivered to California--the 
Metropolitan Water District of Southern California (MWD), the Coachella 
Valley Water District (CVWD), Imperial Irrigation District (IID), and 
the San Diego County Water Authority (SDCWA), which we will 
collectively refer to as the ``Agencies''. We are the water agencies 
that are directly participating in the water transfers and other vital 
actions that make up the Quantification Settlement Agreement, which is 
the subject of this bill, H. R. 5123. The Quantification Settlement 
Agreement (QSA) is the vehicle through which we will implement 
essential provisions of California's Colorado River Water Use Plan 
(California Plan). We cannot overstate the importance of the California 
Plan to California, its economy and environment. Unless this effort 
succeeds, a major statewide water shortage will occur, depriving 
Southern California of 700,000 acre feet per year of crucial water 
supplies beginning on January 1, 2003, only five months from now. We 
have achieved remarkable progress during the years that have been 
devoted to avert this impending crisis, and we are within sight of our 
goal. This effort has not been just that of our four agencies; it has 
involved the work of the legislative and executive branches of the 
federal government and the State of California, particularly Members of 
the House of Representatives.

The Impending Water Shortage
    The Colorado River is a vital resource for Southern California, 
supporting a tremendous agricultural industry and more than 17 million 
residents in one of the most economically productive regions of the 
world, including the cities of Los Angeles and San Diego. The state has 
a Colorado River basic annual apportionment of 4.4 million acre-feet, 
but for many years California has used up to 5.2 million acre-feet per 
year, relying on system surpluses and the apportioned but unused 
Colorado River water of Arizona and Nevada. Before 1997, because the 
unused apportionments of Arizona and Nevada were available to 
California, the availability of additional water over and above the 
state's basic annual apportionment of 4.4 million acre-feet was highly 
predictable. But since Arizona and Nevada have begun using their full 
entitlements, California has had to rely on year-to-year declarations 
of surplus by the Secretary of the Interior to provide the additional 
800,000 acre feet per year to meet California's needs. Those surplus 
declarations depend on the vagaries of the weather and are 
unpredictable.
    If the Guidelines do not remain in effect, California stands to 
lose approximately 700,000 acre feet that are needed to fill MWD's 
Colorado River Aqueduct (CRA), which annually delivers about 1.25 
million acre feet of water to the urban coast. The practical effect of 
the loss of 700,000 acre feet per year to the urban coast would be a 
severe water crisis with devastating economic impacts for all of 
California, and a ripple effect through the economy of our entire 
nation.
    The magnitude of our joint effort to prevent this impending crisis 
is extraordinary. We must reduce California's use of Colorado River 
water by 800,000 acre-feet per year and still continue to meet the 
region's water needs. This reduction is equivalent to the amount of 
water used annually by more than five million people in Southern 
California. Such a dramatic shift in resources is made possible through 
California Plan and QSA programs to conserve agricultural water and 
transfer it for urban uses, as well as groundwater storage and 
conjunctive use projects, and other water management programs. One of 
the most important components of the California Plan is the transfer of 
up to 200,000 acre-feet per year of water from the IID to SDCWA. This 
transfer, along with others, will maintain the reliability of the 
region's water supply and help eliminate the dependence on surplus 
water to fill the CRA.

Progress to Date
    California is at a critical juncture in terms of its use of 
Colorado River resources. The urgent need to reduce river use is well 
understood by the Agencies. Along with the Colorado River Board of the 
State of California, we have responded with the California Plan, which 
was developed in consultation with and is supported by the other six 
Colorado River Basin states and the Department of the Interior. To 
date, the Agencies have successfully fast-tracked a wide range of 
complex legal agreements and environment documents needed to implement 
the Plan. The October 1999 Key Terms for Quantification Settlement 
Among the State of California, IID, CVWD, and MWD identified 12 
specific areas of conditions that need to be satisfied or waived prior 
to execution of the QSA and related documents. This includes completion 
of environmental reviews, implementing interim surplus guidelines, 
implementing an inadvertent overrun and payback program relative to 
Colorado River water consumptive use, completing the California State 
Water Resources Control Board (SWRCB) water transfer petition review 
process, and obtaining conserved water and a means to deliver the water 
for the San Luis Rey Indian Water Rights Settlement Act. The critical 
path for satisfaction of the conditions includes completion of the 
environmental reviews and SWRCB transfer petition process, and securing 
of federal and state Endangered Species Act clearance for the water 
transfers. The remaining conditions have been or are achievable within 
the required time frame for executing the QSA and related documents.
    The following is a list of the major accomplishments (including 
program and project implementation) to date that either relate to the 
California Plan or aid in their effectiveness and implementation:
    <bullet> December 1988--IID/MWD Water Conservation and Use of 
Conserved Water Agreement and the associated 1989 Approval Agreement
    <bullet> April 1998--Water Conservation and Transfer Agreement 
between IID and SDCWA
    <bullet> August 1998--Water Exchange Agreement between SDCWA and 
MWD
    <bullet> September 1998--State funding of $235 million for canal 
lining and conjunctive use elements of the California Plan
    <bullet> October 1999--Key Terms for Quantification Settlement 
Agreement Among the State of California, IID, CVWD, and MWD
    <bullet> November 1999--Secretary of the Interior Final Rule on 
Offstream Storage of Colorado River Water (Interstate Banking)
    <bullet> May 2000--California Colorado River Water Use Plan (a 
prerequisite for Secretarial Colorado River Interim Surplus Guidelines)
    <bullet> December 2000--Public release of draft QSA by QSA parties
    <bullet> January 2001--U. S. Fish and Wildlife Service Biological 
Opinion for Interim Surplus Guidelines and river impacts of the QSA
    <bullet> January 2001--Record of Decision for Colorado River 
Interim Surplus Guidelines
    <bullet> May 2001--Interim Surplus Guidelines Agreement between 
Arizona and MWD
    <bullet> May 2001--Certify Environmental Impact Report for 
Coachella Canal Lining
    <bullet> June 2001--State Funding Agreement for Coachella Canal 
Lining
    <bullet> October 2001--State Funding Agreement for All-American 
Canal Lining
    <bullet> January 2002--Draft Environmental Impact Report/
Environmental Impact Statement for IID Water Conservation and Transfer 
Project and Draft Habitat Conservation Plan
    <bullet> January 2002--Draft Program Environmental Impact Report 
for Implementation of the Colorado River Quantification Settlement 
Agreement
    <bullet> January 2002--Draft Environmental Impact Statement for 
Implementation Agreement, Inadvertent Overrun and Payback Policy, and 
Related Federal Actions
    <bullet> March 2002--Record of Decision for Coachella Canal Lining
    <bullet> May 2002--Draft Environmental Impact Report for the 
Proposed Palo Verde Irrigation District Land Management, Crop Rotation 
and Water Supply Program
    <bullet> May 2002--Interim Surplus Guidelines Agreement between 
Southern Nevada Water Authority and MWD
    <bullet> May--July 2002--Completion of California SWRCB hearing on 
QSA water transfer petition
    <bullet> June 2002--Draft Program Environmental Impact Report for 
Coachella Valley Water Management Plan and State Water Project 
Entitlement Transfer
    <bullet> June 2002--Committee passage of California Senate Bill 
482 regarding California ``fully protected'' species and facilitation 
of the QSA
    <bullet> June 2002--Certification of Environmental Impact Report 
for IID Water Conservation and Transfer Project
    <bullet> June 2002--Certification of Program Environmental Impact 
Report for Implementation of the Colorado River Quantification 
Settlement Agreement
    <bullet> July 2002--Notice to Proceed for Design of Coachella 
Canal Lining Project
    <bullet> Drafts of the Quantification Settlement Agreement and all 
related legal documents
    <bullet> All American Canal and Coachella Canal lining projects 
construction agreements
    <bullet> MWD, in conjunction with others, has initiated 
development of potential Colorado River water storage and conjunctive 
use programs in:
        <bullet> Hayfield Valley
        <bullet> Chuckwalla Valley
        <bullet> Cadiz Valley
        <bullet> ower Coachella Valley
        <bullet> Arizona
    The California water agencies have already spent millions of 
dollars toward formulating and securing approval of vital components of 
the California Plan, and will commit billions of dollars upon their 
implementation. In addition, the State of California has appropriated 
$235 million for canal lining and groundwater projects in furtherance 
of the California Plan. The Plan will be complemented by efforts to 
aggressively promote additional water conservation, water reuse, and 
local water supply development within the service area boundaries of 
each agency.

California Plan--Implementation Timeline
    California was given time to implement the water conservation and 
transfers when the Secretary of the Interior adopted the Interim 
Surplus Guidelines (Guidelines) in January 2001. The Guidelines are 
essentially special rules for operating Lake Mead that allow California 
to receive additional surplus water for 15 years, or through 2016. 
Without these special rules, California would now receive no surplus 
water and would presently be experiencing an 800,000 acre-foot shortage 
of water for this year. During the period that the Guidelines are in 
effect, California is expected to implement necessary water transfers 
and other programs. The Guidelines are contingent, however, upon 
California's successful completion of certain deadlines and milestones.
    One critical deadline that must be met is the execution of the 
Quantification Settlement Agreement, the most important element of the 
California Plan, by December 31, 2002. The ability to execute the QSA 
by this deadline is the single most important issue facing us today. If 
the QSA is not executed by this deadline, the California Plan is at 
grave risk of unraveling.
    The QSA is designed to settle longstanding differences between the 
Agencies and implement core water transfers, including the IID/SDCWA 
transfer. The QSA must be implemented to continue the Guidelines and 
allow the California Plan to go forward. The Guidelines specifically 
provide that unless the QSA is executed by December 31, 2002, the 
surplus provisions that benefit Southern California will be suspended 
until such time as California completes all required actions and 
complies with reductions in water use reflected in the Guidelines. This 
means that we are facing the loss of the additional surplus water 
provided under the Guidelines if the QSA is not executed by the end of 
the year, resulting in the loss of 700,000 acre-feet per year of water 
to Southern California, beginning on January 1, 2003.

Environmental Compliance Issues
    The Agencies have worked diligently with the United States Fish and 
Wildlife Service and the Bureau of Reclamation to reach agreement on an 
on-river habitat and backwater mitigation plan to address impacts of 
shifting water from agricultural to urban points of use. Additionally, 
agreements will be in place for in-valley measures to mitigate impacts 
of the programs in the area where water conservation will occur. 
Likewise, project-specific environmental reviews address individual 
project impacts. This includes canal lining projects and water storage 
and conjunctive use programs.
    The Agencies have also pursued a similar course of action with the 
State of California executive branch and legislature to address 
compliance with the California Endangered Species Act and a special 
provision of California law dealing with ``fully protected'' species. 
The State of California places a high priority on implementing the 
California Plan and QSA, and the Secretary of the California Resources 
Agency, Mary Nichols, is chairing a broad-based group working to solve 
the state issues. In the California legislature, Senate Bill 482, 
sponsored by Senator Sheila Kuehl, has passed its committee and will 
now be considered by the full State Assembly and Senate. That bill 
resolves state ``fully protected'' species issues, which must occur to 
implement the QSA, and takes other actions to facilitate the QSA.
    The remaining major federal issue regarding execution of the QSA is 
how to address potential environmental impacts of water conservation 
and transfers on the Salton Sea. The transfer of conserved water from 
the agricultural sector to the urban sector is essential to allow 
California to live within its 4.4 million acre-foot basic annual 
apportionment. However, water conservation in agricultural areas using 
Colorado River water, specifically in the IID service area, may cause 
reduced agricultural drainage to the Salton Sea.
    The present Salton Sea was created in 1905 when floodwaters of the 
Colorado River broke through diversion facilities along the river near 
the international boundary and carried the entire flow of the river 
through the Alamo Canal into the below sea level Salton Sink until the 
breach was finally closed in 1907. Since that time, as the Sea's water 
has evaporated, it has been maintained by inflows, the vast majority of 
which consists of agricultural drainage water. As provided for by 
Presidential executive orders in the 1920's, the principal purpose of 
federal Salton Sink lands below elevation minus 220 feet since that 
time has been to serve as a reservoir for the irrigation drainage 
waters from the Imperial, Coachella, and Mexicali valleys. Without 
these drainage inflows, the Sea would evaporate and disappear. 
Freshwater fish species that were carried into the Sea by the 
floodwaters died off as the salinity level of the Sea rose. Beginning 
in 1929, the California Department of Fish and Game created a salt 
water fishery by introducing various species of sport fish from the 
Gulf of California. Other exotic fish have been accidentally introduced 
to the Sea and have established populations.
    Today the Salton Sea is used by many species of migratory birds, 
including certain endangered species. Many of these species rely on the 
fish in the Sea for their food source. Because of evaporation, the 
Sea's salinity has increased steadily over the years, and will continue 
to increase absent intervention. Now at a salinity of 44,000 parts per 
million, which is 25 percent saltier than the Pacific Ocean, the Salton 
Sea is approaching a ``hypersaline'' condition, in which the 
reproduction and survival of fish is jeopardized. It has been estimated 
that under current conditions, the Sea will reach a critical salinity 
level that is unable to support a fishery in 7 to 25 years.
    The causes of increasing salinity and environmental decline of the 
Salton Sea extend far beyond any effect of the transfers. Congress 
recognized this fact in the 1998 Salton Sea Reclamation Act (Public Law 
105-372) and directed that the transfers be included in the baseline 
condition of the proposed Salton Sea reclamation options. The 
legislation acknowledged the importance of the water transfers to 
California, the other Colorado River Basin states, and Mexico.
    The 1998 reclamation law required a feasibility study, providing 
reclamation options, be submitted to Congress by January 1, 2000. We 
had expected that Congress would by now have been able to consider the 
feasibility study and make a decision on reclamation of the Sea. 
However, the feasibility study has yet to be completed. The QSA, and 
its impending deadline for execution, is therefore ahead of the federal 
Salton Sea reclamation effort. Because of this, the Agencies must 
separately address environmental compliance related to the water 
transfers at the Salton Sea. This is difficult because the 
environmental impacts related to endangered species are temporal in 
nature and not easily quantified. The best scientific analysis 
available estimates that the Salton Sea will reach the critical 
hypersaline environment 2 to 11 years earlier if the QSA water 
transfers are implemented. Absent a comprehensive solution, the Salton 
Sea will soon reach a hypersaline level with or without the QSA water 
transfers.
    These matters are beyond the Agencies'' direct control to resolve. 
Accordingly, the Agencies have met extensively with Department of the 
Interior officials, including the Fish and Wildlife Service and the 
Bureau of Reclamation, to determine how the QSA may be executed within 
the time frame required. We are very appreciative of the assistance we 
have received and their recognition that this is an urgent matter.
    We are also grateful for the concern and assistance of Members of 
Congress in identifying legislative proposals to move the QSA past the 
remaining obstacles. In August 2001, Congressman Hunter introduced a 
bill specifically designed to facilitate implementation of the QSA, and 
in October 2001, Congressman Calvert's H.R. 3208, the Western Water 
Security Enhancement Act, added authorization for an appropriation for 
activities to address environmental impacts on the Salton Sea. However, 
we are now only five months from the deadline for execution of the QSA, 
and we must resolve the Salton Sea issues this year in order meet the 
deadline. Recognizing the urgency and gravity of the situation, 
Congressman Hunter has introduced H.R. 5123 to address remaining 
issues.

H.R. 5123--The Colorado River Quantification Settlement Facilitation 
        Act
    The basic tenet underlying H.R. 5123 is that the water agencies are 
not responsible for restoring the Salton Sea. This follows the 
principles of the 1998 Salton Sea Reclamation Act, which recognizes 
that Congress must make a decision on reclamation of the Sea, and that 
the Sea's problems cannot disrupt the water transfers that are so 
crucial to the future of California.
    H.R. 5123 would also provide $53 million for small off-stream water 
management reservoirs and associated facilities to improve water 
conservation and river management, which could also provide improved 
water supply management options for Mexico. The Bureau of Reclamation 
estimated that in 2000 about 300,000 acre-feet was lost from Colorado 
River reservoir storage because of the inability to re-regulate lower 
Colorado River flows.
    The Agencies look forward to working with Congressman Hunter, other 
Members of Congress and staff, and interested parties during the 
upcoming recess to agree on modifications to the bill language that 
will resolve all legitimate concerns and enable the QSA to move forward 
in a timely manner.

Conclusion
    Failure to meet the deadlines will mean suspension of the Interim 
Surplus Guidelines and an immediate loss of over 700,000 acre-feet of 
water to Southern California on January 1, 2003. Such a massive water 
shortage would have severe economic consequences for the State of 
California, and those consequences would be felt across the nation.
    Finally, we want to restate our Agencies'' commitment to implement 
the California Plan and maintain our lifeline to the Colorado River. We 
urgently need the assistance of the Congress to provide a means for us 
to proceed within our time constraints, while recognizing and meeting 
legitimate concerns for the future of the Salton Sea.
    We appreciate the opportunity to appear before the Subcommittee to 
address these very important issues.
                                 ______
                                 
    Mr. Calvert. Mr. Snape.

STATEMENT OF BILL SNAPE, VICE PRESIDENT FOR LAW AND LITIGATION, 
                     DEFENDERS OF WILDLIFE.

    Mr. Snape. Thank you very much, Mr. Chairman. I ask that my 
full written statement be submitted for the record.
    Mr. Calvert. Without objection. You are recognized for 5 
minutes.
    Mr. Snape. I will cut to the chase, Mr. Chair. The 
Endangered Species Coalition, of which Defenders of Wildlife is 
a part and the Salton Sea Coalition in California, made up of a 
number of environmental and conservation groups in that State, 
each oppose H.R. 5123 as written.
    But I think focusing on some of the specific legislative 
provisional language that this bill has misses, I think, some 
key points, and I want to touch upon some of those key points 
right now.
    The first, and I have heard this repeatedly and it is not 
often I get to quote the Rolling Stones at a Congressional 
testimony, but I am going to do it. I think time is on our 
side, at least to a greater extent than has been portrayed this 
morning. The reason I say that is that under the Interim 
Surplus Guidelines final rule, which is the document that 
everyone is referring to when they say that we are going to 
lose, California is going to lose this extra water if we don't 
consummate the QSA by the end of the year, that isn't exactly 
what it says. What it says is that the State of California 
needs to meet a benchmark.
    It is my opinion that the State of California is already at 
that benchmark or is extremely close to it. That does not mean 
that we have years to figure this out. I think that we ought to 
start, as we have today and tomorrow, and get this done this 
year if possible. But I do not subscribe, it is my legal 
opinion that the world will not come to an end on December 31, 
per se.
    But we might face another crunch on December 31, 2003 
because you will have to reach another benchmark at that point. 
But I just think we have a little bit more time than has been 
assumed throughout all of the testimony this morning. That is 
Section 5, for those interested, in the Interim Surplus 
Guideline final rule published in January 2001.
    The other point I wish to make is a broad based 
environmental point, as you might expect from me. It is the 
only thing I really disagreed with Bob Johnson on, who I 
respect a great deal. But in his testimony and it has been 
echoed by others that somehow the Salton Sea and the QSA and 
the transfer are not linked. I think they are linked. Even if 
we wanted them to not be linked, the ecology of the Lower 
Colorado River Basin and the events as we now know them have 
linked them beyond our control.
    I think from an environmental point of view what that has 
led to are a series of environmental analyses that for the 
narrow question that they are asking, are good analyses, 
perhaps, perhaps.
    But they certainly have not looked at the whole picture. I 
think Congresswoman Bono was getting at this. We still, I don't 
think, have wrapped our arms around not only the full issues of 
the Salton Sea and restoration of it, but how this is going to 
relate to the larger QSA effort.
    My own take on the Salton Sea for what it is worth, and it 
may not be worth very much because there have been much 
brighter scientific mines than I that have looked at this, but 
our take on the Salton Sea is that it is a question of what 
full restoration actually means.
    I do think our goals for the Salton Sea need to be 
reasonable. I admit that that is a subjective term, but I do 
think that is part of the problem here. I think we have all 
alluded to that in some fashion or another.
    The last point I will make is that perhaps the worst or 
best criticism I can make of this particular bill, and it may 
not be a matter of intent; it just may be the way it is 
crafted, is I do think that of the $163 million contemplated to 
be spent by this bill, I am just not sure we know yet how to 
best spend that money. I am not convinced with the $113 million 
of Federal funds, the $50 million of private funds, although 
there is some confusion as to how those pots of money are 
related -- I am not sure what we would be throwing money at at 
this point.
    In fact, just to finish by quoting the Salton Sea Act of 
1998, because I agree with Mr. Hunter and Mrs. Bono on this 
point, I think all of us are saying this in different ways. But 
I just want to read from that Act Section 3, assumptions.
    ``In evaluating options, the Secretary of Interior shall 
apply assumptions regarding water inflows into the Salton Sea 
Basin that encourage water conservation and accounts for 
transfers of water out of the Salton Sea Basin and are based on 
a maximum likely reduction in inflows into the Salton Sea Basin 
which could be 800,000 acre-feet or less per year.''
    In the next section on consideration of costs, it says that 
``Federal, tribal, State, local governmental sources and 
private sources shall fund capital construction costs.''
    I think we knew in 1998 we were going to have to hold hands 
and do this. I think where we are today is that we still don't 
know how to get there. Now we have this QSA that is hovering 
over us, not maybe as immediately as this December, but 
certainly by next December.
    Thank you, Mr. Chairman.
    Mr. Calvert. I thank the gentleman for your testimony.
    [The prepared statement of Mr. Snape follows:]

 Statement of William J. Snape, III, Vice President and Chief Counsel, 
                         Defenders of Wildlife

    Defenders of Wildlife (``Defenders'') and our allies--other 
conservation groups, Indian tribes, and various business interests--
have been actively working to protect and restore the Colorado River 
for almost a decade. Defenders itself is a non-profit biodiversity 
organization with approximately one million members and supporters. Our 
offices are headquartered in Washington, D.C. with field offices, inter 
alia, in Albuquerque, Tucson, Sacramento and Mexico City. Starting with 
Secretary of the Interior Bruce Babbitt's efforts in the mid-90s, and 
continuing with the Bush Administration, Defenders has commented on 
numerous proposals, draft environmental impact statements, 
administrative decisions, legislative initiatives and the like relating 
to H.R. 5123. We are intimately involved in almost every facet of this 
intertwining set of serious water policy issues.
    This Committee must decide what, if anything, Congress should do 
regarding management of the Colorado River. At present, Defenders does 
not see the need for federal legislation. And while I reserve the 
opportunity to submit additional information for the record at the 
hearing, including our serious concerns with the extremely problematic 
legislative language in H.R. 5123, our message today is three-fold:
Point One: A 4.4 Plan is a Good Thing
    Defenders unequivocally supports the state of California's efforts 
to get its annual consumptive use to 4.4 million acre-feet (af), the 
amount allotted under the ``Law of the River.'' <SUP>1</SUP> Defenders 
also supports, in broad principle, the proposal to sell water from the 
Imperial Irrigation District to San Diego County <SUP>2</SUP>, as well 
as the proposal to establish instream flow rights for the entire river 
as part of the United States'' trust responsibilities to the American 
public.
---------------------------------------------------------------------------
    \1\ See Arizona v. California, 376 U.S. 340 (1964)(Supreme Court 
Decree regarding Boulder Canyon Project Act and other law).
    \2\ See, e.g., Legal Memorandum of Defenders of Wildlife and 
Planning & Conservation League, In re Imperial Irrigation District and 
San Diego County Water Authority, State of California Water Resources 
Control Board (July 11, 2002).
---------------------------------------------------------------------------
Point Two: Use, Don't Abuse, NEPA
    The environmental review under the National Environmental Policy 
Act (NEPA)--a statute that possesses no express substantive 
restrictions--for the Quantification Settlement Agreement (QSA) and all 
other related actions has been pitiful. <SUP>3</SUP> Instead of looking 
for ways out of NEPA, Congress and the applicable federal agencies 
should be seeking to utilize NEPA as the useful federal planning device 
that it is. No one should be surprised that federal agencies such as 
the Bureau of Reclamation now face serious legal questions under the 
Endangered Species Act (ESA) because these agencies have little idea 
how their various band-aid proposals--none of which have been looked at 
synergistically--would impact listed species such as the brown pelican, 
snowy plover, Yuma clapper rail, and the desert pupfish. The 
legislative environmental waivers contained in the present bill are 
completely unnecessary <SUP>4</SUP>, an admission of failure, and will 
be vigorously opposed by the general public. <SUP>5</SUP>
---------------------------------------------------------------------------
    \3\ See, e.g., Letter from E.P.A. to Bureau of Reclamation, 26 
April, 2002 (noting ``adverse effects to surface and groundwater 
quality and lack of mitigation,'' ``insufficient information'' on 
public health and endangered species issues, and the clearly illegal 
segmentation of many related actions). The state of California has 
echoed these concerns.
    \4\ Not only have the major California water users already 
tentatively agreed to an initial five-year fallowing period on lands 
contained in the Imperial Irrigation District, which would alleviate 
many of the short-term problems facing the Salton Sea, but the December 
31, 2002 ``deadline'' for QSA execution in the Interim Surplus 
Guidelines also provides more flexibility for California than is 
commonly asserted. We have time to do the California 4.4 Plan 
correctly.
    \5\ See, e.g., www.stopextinction.org. Defenders has identified at 
least a dozen serious drafting flaws and/or environmental rollbacks in 
the bill at issue.
---------------------------------------------------------------------------
Point Three: Look at the Salton Sea in Context
    Restoration of the Salton Sea is an important objective for 
migratory birds, recreation, and related economic reasons. Our goals 
should be realistic, with concrete responsibilities (both short and 
long-term) assigned to various parties. In addition, restoration of the 
Salton Sea must be viewed in the context of Mexican Delta conservation 
because the two water complexes are in the same ecosystem and water 
basin. <SUP>6</SUP> Federal aid to individuals and projects in the 
Imperial Valley must be closely scrutinized so as to be consistent with 
overall Congressional objectives in the region. <SUP>7</SUP> It is 
startling to see the language in H.R. 5123 when such little tangible 
progress has been made in implementing the terms and objectives of the 
1998 Salton Sea Reclamation Act by Congress (P.L. 105-372).
---------------------------------------------------------------------------
    \6\ See generally Defenders of Wildlife et al. v. Norton, pending 
before Judge Robertson in the U.S. District Court for the District of 
Columbia. This case, fully briefed and argued, will determine whether 
federal agencies must ``consult'' under the ESA for impacts from U.S. 
federal actions upon U.S.-listed species that occur in the Mexican 
Delta of the binational Colorado River. No injunctive relief or demand 
for water has been requested in this litigation. See also Minute 306 to 
1944 United States-Mexico Water Treaty.
    \7\ This bill authorizes an additional $113 million of federal 
funds (roughly similar amounts for habitat enhancement and water 
storage respectively), plus potentially another $50 million in private/
public funds, to essentially maintain a murky status quo. It would be 
far better to spend this money on ecologically-sound restoration 
projects and economically-sustainable jobs in the Imperial Valley once 
an agreed blueprint for overall action is agreed upon. Such a present 
lack of clarity perhaps explains why the financial numbers in H.R. 5123 
are different than both what the Imperial Irrigation District's general 
counsel states and what a consulting firm estimates. Compare John Penn 
Carter, Water Transfers and the Salton Sea at 4, CLE International (May 
3, 2002)(``The cost of mitigating for adverse socioeconomic impacts 
resulting from a fallowing program may very well be equal to, or 
greater than, the hundreds of millions of dollars required for 
environmental mitigation.'') with Tetra Tech, Inc., Draft Assessment of 
Salinity and Elevation for Varied Inflow (April 2002)(numerous 
estimates under different plausible scenarios).
---------------------------------------------------------------------------
Conclusion
    Congress is perhaps at the most important juncture in the 
management of the lower Colorado River--a federalized river--since 1928 
when it passed the Boulder Canyon Project Act. <SUP>8</SUP> 43 U.S.C. 
Sec. 617 et seq. Major issues pertaining to California development, 
human health, the Salton Sea, federal expenditures, and the entire 
efficacy of the lower Colorado River basin, including Mexico, are all 
at stake. Although these issues are not easy, they can be solved if a 
truly representative and legal process is utilized. The temptation for 
quick fixes, with inadequate information supplied for and by the 
privileged few, should be rejected.
---------------------------------------------------------------------------
    \8\ See generally Western Water Policy Review Advisory Commission, 
Water in the West: Challenge for Next Century (June 1998); William 
DeBuys and Joan Myers, Salt Dreams: Land and Water in Low-Down 
California (1999).
---------------------------------------------------------------------------

    Thus, we respectfully urge this Committee:
    * to continue its important oversight role over the subject matter 
contained in H.R. 5123; and
    * to reject H.R. 5123 until a demonstrable need for federal 
legislation, which must be significantly altered from it present 
unacceptable form, is offered.
                                 ______
                                 
    Mr. Calvert. A point well taken. Mr. Levy, very quickly.
    Mr. Levy. I hate to interrupt. I would just ask that you 
have the Committee counsel look at the Interim Surplus 
Guidelines. You will find, I believe, in there that it requires 
suspension of the transfers and going to a 70-R criteria which, 
given the conditions on the Colorado today, means 4.4.
    Mr. Carter. Thank you, Mr. Levy. That is just the point I 
was going to bring up. In this job I found a lot of water 
attorneys and Mr. Hayes has indicated to me, who was the 
primary gentleman who was negotiating this agreement along with 
Mr. Babbitt, have both indicated that if in fact this QSA is 
not executed by the end of this year that the Department of 
Interior is within its rights to have sudden death on the 
Colorado River as far as California is concerned. The soft 
landing goes away.
    That is the way I have read the agreement. I appreciate 
your analyses, Mr. Snape, but as you know, probably half the 
people in this room are water attorneys and they probably have 
different opinions, each one of them.
    One thing, let us get to the point, Mr. Carter, you are a 
very important guy around here because you know, there was a 
famous guy back in the '20's or '30's. They asked him why he 
robbed banks and he said, ``That is where the money is.''
    So, we made this comment before about Imperial County. Why 
is everybody looking to you? Because that is where the water 
is. The 4.4 million acre-feet of water that we get in 
California, Imperial County has perfected water rights up to 
3.3 million acre-feet.
    So, everybody is looking to you all. As Mr. Hunter pointed 
out earlier, they were talking about that 100 years ago. They 
knew that that was going to happen some day. You guys have 
spent a lot of money perfecting that water right.
    We have heard some very colorful and interesting language 
coming from various people in Imperial County, which I think, 
by the way, is unfortunate. I don't think that helped the 
process. We are trying to find a solution to this problem. I 
don't think there is a person on this panel that doesn't agree 
that we must, for California's sake, come up to a solution to 
his problem.
    We are running out of time. Mr. Levy indicated what is 
going to happen this summer. You have my commitment. I will 
spend as much time as necessary to find, or hopefully to find a 
solution to this problem.
    Mrs. Bono obviously has some significant issues regarding 
air quality. We need to work on that. We have many issues that 
we have to deal with. Mr. Snape had indicated, others have 
indicated this legislation, like all bills, isn't going to come 
out exactly as written.
    I am sure Mr. Miller is here to point out some of the 
issues that he has with it. But nonetheless, we have to do 
something. I again want to compliment Mr. Hunter for putting 
something on the table because I have to believe that nobody, 
nobody it envisioned in Imperial County, one of the poorest 
counties in the State of California, with the highest 
unemployment rate of any county in the State of California to 
take on unlimited liability, third party liability.
    We have to resolve these issues and we have to do it very 
quickly before we can move this legislation forward.
    Getting back to the issue, the big question, Mr. Carter, of 
fallowing, obviously we have heard from Imperial County in many 
different ways on this. In your opinion, is fallowing off the 
table?
    Mr. Carter. Yes, sir. Any long-term fallowing program is 
not acceptable to the Imperial Valley.
    Mr. Calvert. In your opinion, is there one board member on 
IID who would agree to the concept of fallowing?
    Mr. Carter. No.
    Mr. Calvert. In your opinion, the Board of Supervisors in 
the County of Imperial, have any of them or the county itself 
have indicated any movement toward fallowing?
    Mr. Carter. Not that I am aware of.
    Mr. Calvert. And in your opinion the water rights that you 
hold, which I mentioned earlier, have been perfected over 100 
years, you have a pretty good standing in court?
    Mr. Carter. Yes.
    Mr. Calvert. Mr. Levy, would you agree with that analysis?
    Mr. Levy. No.
    Mrs. Napolitano. I like him.
    Mr. Calvert. Mr. Underwood, what is your feeling about 
that? What is Metropolitan's feeling? You have a little 
experience in this issue.
    Mr. Underwood. I agree. We are not looking at long-term 
fallowing because of the impact. But fallowing can, on an 
interim basis or an upfront basis maybe help us get there along 
with some other concepts.
    Mrs. Napolitano. Would the gentleman yield?
    Mr. Calvert. Yes.
    Mrs. Napolitano. The question is, what do you consider 
long-term fallowing?
    Mr. Underwood. No.
    Mrs. Napolitano. What is long term? Two years? Ten years?
    Mr. Underwood. In the context of the discussions, the 
agreements can last as long, if not longer, than 75 years. That 
for sure would be long-term.
    Mr. Carter. Reclaiming my time, because we are short of 
time, I just wanted to get that on the table. Obviously, that 
is the problem, I mean the problem that has to be solved here 
in the next couple of months.
    Again, I will work with everybody on both sides of the 
aisle and with all the water agencies and the rest and the 
State of California because in spite of the quote from the 
Rolling Stones, I am not sure that time is on our side, 
especially in this hearing because we have 7 minutes before the 
next vote.
    Mr. Hunter. Mr. Chairman, could I ask one question before 
we go?
    Mr. Calvert. As Mr. Miller said, you can't always get what 
you want. We have one vote.
    Mr. Hunter. Mr. Chairman, I am going to have to handle the 
next motion on the floor, so if you would indulge me, I think 
it would help everybody if I could ask one quick question that 
I think kind of sets the stage for this particular bill.
    Mr. Calvert. Very quickly.
    Mr. Hunter. OK, just very quickly. Do you gentlemen agree 
with the idea that understanding that the Salton Sea problem is 
not resolved at this time, that is the essence of the testimony 
we have heard, and there is going to have to be a sharing of 
the burden of solving this big problem called the Salton Sea, 
that there should be a finite burden, a clear and concise and 
terminable, finite burden that the water transfer itself should 
carry with a limitation that it will not go beyond that?
    Mr. Carter. IID's answer would be yes.
    Mr. Underwood. In terms of contributions, I would just like 
to make a point that it is not just the transfers that we are 
doing. If you look at the San Diego transfer and the transfer 
to Coachella, if you look at the QSA, it also includes the 
metropolitan IID transfer.
    I just want for the record to indicate that we have spent 
and contributed over $20 million already.
    Mr. Hunter. Understanding that, is your answer yes, that 
there should be a finite limitation to that burden?
    Mr. Underwood. Yes.
    Mr. Calvert. Well, we thank the gentleman. We have about 4 
minutes for the vote. We will vote and come back immediately 
and wrap up this hearing and then we will go right into the 
markup of the two bills.
    [Recess]
    Mr. Calvert. The Committee will come to order.
    Mr. Miller, you are recognized.
    Mr. Miller. Thank you, Mr. Chairman. Let me say at the 
outset and I guess to pay tribute to you, Mr. Chairman, on the 
time that you have spent on this issue, but not just this 
issue, also on a whole series of related California water -- I 
guess we call them problems -- California water problems.
    I know personally from conversations with you and meetings 
and the rest how much time you have spent and the time that you 
have tentatively set aside over the break to try and bring 
people together.
    I really don't have any questions because I have the 
feeling that I am in a conversation that I had before.
    I have some concerns. I have some concerns with what I 
believe at this time to be a piecemeal approach here. I am not 
terribly comfortable with the idea that we can separate the 
transfer from the Salton Sea and I am not comfortable with 
before we know what the real parameters are of trying to deal 
with the Salton Sea and I think I am open to the full range, 
some of which are hard to contemplate, but I am open to those.
    I am not comfortable, either, with all of a sudden limiting 
liability of one party to what may be a solution. I don't 
think, as troublesome as the Salton Sea is, I don't think that 
this legislation really deals with that issue and those 
interests.
    So, I am not going to be supporting this at this time. I 
just think we are moving further away from where we were in 
Senator Feinstein's office with this idea. I just don't think 
it passes the muster at this time.
    That is all, Mr. Chairman.
    Mr. Calvert. I thank the gentleman.
    Mrs. Bono.
    Mrs. Bono. Thank you, Mr. Chairman. I would like Mr. 
Underwood to briefly explain the differences in fallowing -- 
and I don't want to again say that I support fallowing, 
necessarily, but I think short term fallowing should be on the 
table. But why is it successful in the Palo Verde Valley and 
Blythe and why are we so hesitant in the Imperial Valley.
    Mr. Underwood. Let me talk about the different types of 
fallowing first, and then maybe I will talk about the PDID. I 
will try to be brief. We have all used different terms for 
these. But I think first of all you have to recognize that like 
Mr. Carter was indicating, that long-term fallowing is a very 
difficult issue for Imperial.
    The idea of doing something short term or interim or up 
front for limited period of time does have some merit in the 
sense of what I think Congressman Miller was getting to, is 
that it may buy you some time relative to decisions. You don't 
forego opportunities relative to the Salton Sea.
    So, if you take any kind of fallowing, it will have less of 
an impact than on-farm relative to the sea. If you take what we 
call direct fallowing, and let's assume that there is six feet 
per acre, if you take all of that water, that would be referred 
to as direct fallowing. That would have a third of an impact on 
the sea that it would have had from an on-farm.
    If you take what we referred to as an evapotranspiration 
fallowing, the crops would be taking four feet, you still have 
six feet. You have two acre feet then that would return flows 
that would go to the sea.
    You would transfer only those that would be the crop 
evapotranspiration waters. The other two then you would put for 
land management and maintenance, which in effect would help 
relative to either maintaining soil salinity, et cetera, but 
you would get back to the sea and essentially have no impact on 
the sea.
    Mrs. Bono. Mr. Underwood, I just want to steer you in a 
little bit different direction. It is more of the economic 
impacts of fallowing that I would like you to address.
    Mr. Underwood. I was going to get to that. I wanted to at 
least explain what they were.
    Mrs. Bono. Yes. I just hate that little red light that is 
going to come on real quickly.
    Mr. Underwood. The part between the two, obviously in terms 
of socio-economic impacts, if you are doing on-farm 
efficiencies, there is no socio-economic impact. If you do the 
direct fallowing it has socio-economic impacts. If you do the 
evapotranspiration, because it requires more acreage, there is 
greater socio-economic impact.
    Mrs. Bono. But would you say it has been successful so far 
in Blythe and the people of Blythe?
    Mr. Underwood. Let me propose what is going on in the 
Blythe area. You can't do system improvements in the Blythe 
area because it is waters that come through the system and go 
back to the river. So, there are very little efficiency 
improvements that you can gain.
    So, really a fallowing program is the only way to 
potentially provide for water supply. Why would the Blythe area 
be interested? I think everybody recognizes that some of the 
agricultural economies have not been the greatest and because 
of international markets it is harder to predict.
    Mrs. Bono. Doesn't that hold true in Imperial Valley as 
well?
    Mr. Underwood. Correct. But let me finish up. If you look 
at the farmers and the Board of Trustees are the farmers in the 
Palo Verde and they recognize the value of having some 
stability to their farm economy.
    Personally, I think such a type of a program, and in 
Imperial it could potentially work, too, whether it was a dry 
year program or whether it was just something up front to 
potentially buy us some time for the decisionmaking relative to 
the sea. I think it still had some opportunities in Imperial.
    Mrs. Bono. Thank you.
    Mr. Kirk, part of my, I think, frustration with the Salton 
Sea Authority has been when it was created it was far too 
narrow of a charge. You have been changed entirely with saving 
the sea, but not with saving the region.
    Has your approach, because I believe it has been, but 
hasn't your approach been solely focused on saving the sea and 
not more regional policies? I think you are dealing with two 
sets of county supervisors, a handful of Members of Congress, a 
whole host of different municipalities. So, you have so many 
divided interests.
    But wouldn't it be helpful if we actually now expanded our 
scope into looking at other examples, for example, bringing the 
dairies down to the Imperial Valley, these sorts of things that 
your group has not really been charged with doing?
    Mr. Kirk. We would be happy to change our charter to be in 
control of all things in southern California. I agree with you, 
though, our boundaries include the Salton Sea. However, we have 
been trying to look at economic development issues.
    At the same time, we have been very deferential to our 
colleagues in the Imperial Valley and particularly the IID and 
Imperial County Board of Supervisors. They do sit on our Board 
and to the degree that we along with the partnership with the 
Congressional Task Force could look at the Salton Sea, look at 
the water transfer and look at economic development and try to 
marry all those pieces together, I think our Board of Directors 
would be interested in doing so.
    Mrs. Bono. Thank you. I see my time is up.
    Mr. Calvert. I thank the gentle lady.
    In the interest of time, we have a number of questions I 
would love to ask, but we must end this hearing and we are 
going to go to the markup. So, we thank this panel. We 
appreciate your being here.
    [Whereupon, at 12:30 p.m., the Subcommittee proceeded to 
other business.]


</pre></body></html>
